<html>
<title> - INTERNATIONAL MARITIME SECURITY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
                    INTERNATIONAL MARITIME SECURITY

=======================================================================

                             JOINT HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                and the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 13, 2005

                               __________

                           Serial No. 109-148

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-923                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
            Dr. R. Nicholas Palarino, Senior Policy Analyst
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member
?

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman

PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina        Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California

                     J. Marc Wheat, Staff Director

                           Malia Holst, Clerk

                     Tony Haywood, Minority Counsel

                                 (III)


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 13, 2005................................     1
Statement of:
    Crye, Michael J., president, International Council of Cruise 
      Lines; Gregory M. Purdy, director of security, safety, 
      security and environment, Royal Caribbean Cruises Ltd.; and 
      Charles E. Mandigo, director, fleet security, Holland 
      America Line, Inc..........................................   147
        Crye, Michael J..........................................   147
        Mandigo, Charles E.......................................   178
        Purdy, Gregory M.........................................   166
    Swecker, Chris, Assistant Director, Criminal Investigation 
      Division, Federal Bureau of Investigation; Rear Admiral 
      Wayne Justice, Director of Operations Policy, U.S. Coast 
      Guard, accompanied by Rear Admiral John Crowley, Judge 
      Advocate General, U.S. Coast Guard; and Rear Admiral James 
      E. McPherson, Judge Advocate General, U.S. Navy............    81
        Crowley, John............................................    94
        Justice, Wayne,..........................................    94
        McPherson, James E.......................................   109
        Swecker, Chris...........................................    81
Letters, statements, etc., submitted for the record by:
    Crye, Michael J., president, International Council of Cruise 
      Lines, prepared statement of...............................   151
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   131
    Justice, Rear Admiral Wayne, Director of Operations Policy, 
      U.S. Coast Guard, prepared statement of....................    96
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............     6
    Mandigo, Charles E., director, fleet security, Holland 
      America Line, Inc., prepared statement of..................   180
    McPherson, Rear Admiral James E.,Judge Advocate General, U.S. 
      Navy:
        Daily Terrorism Brief....................................   143
        Prepared statement of....................................   110
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................   215
    Purdy, Gregory M., director of security, safety, security and 
      environment, Royal Caribbean Cruises Ltd., prepared 
      statement of...............................................   169
    Ros-Lehtinen, Hon. Ileana, a Representative in Congress from 
      the State of Florida, prepared statement of................   214
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Prepared statement of....................................     3
        Various prepared statements..............................    15
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     9
    Swecker, Chris, Assistant Director, Criminal Investigation 
      Division, Federal Bureau of Investigation, prepared 
      statement of...............................................    84


                    INTERNATIONAL MARITIME SECURITY

                              ----------                              


                      TUESDAY, DECEMBER 13, 2005,

                  House of Representatives,
        Subcommittee on National Security, Emerging 
            Threats, and International Relations, joint 
            with the Subcommittee on Criminal Justice, Drug 
            Policy, and Human Resources, Committee on 
            Government Reform,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 2:09 p.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the Subcommittee on National Security, 
Emerging Threats, and International Relations) presiding.
    Present from the Subcommittee on National Security, 
Emerging Threats, and International Relations: Representatives 
Shays, Duncan, Maloney, and Ruppersberger.
    Present from the Subcommittee on Criminal Justice, Drug 
Policy, and Human Resources: Representatives Souder and 
Cummings.
    Also present: Representative Norton.
    Staff present: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, Ph.D., senior policy advisor; 
Robert A. Briggs, clerk; Marc LaRoche, intern; Tony Haywood, 
minority counsel; Andrew Su, minority professional staff 
member; and Jean Gosa, minority assistant clerk.
    Mr. Shays. A quorum being present, this joint hearing of 
the Subcommittee on National Security, Emerging Threats, and 
International Relations and the Subcommittee on Criminal 
Justice, Drug Policy, and Human Resources entitled, 
``International Maritime Security'' is called to order.
    Just 2 days ago, Coast Guard officials began conducting 
search operations in the waters north of the Bahamas because a 
cruise ship passenger was reported missing. In early November, 
modern-day brigands fired mortars at a cruise ship off the 
coast of Somalia. These are two recent additions to a growing 
manifest of unexplained disappearances, unsolved crimes, and 
brazen acts of lawlessness on the high seas. According to the 
industry experts, a wide range of criminal activities, 
including drug smuggling, sexual assaults, piracy, and 
terrorism, threaten the security of maritime travel and trade. 
Today we begin an examination of the complex web of laws, 
treaties, regulations, and commercial practices meant to 
protect lives and property in an increasingly dangerous world.
    Ocean travel puts passengers and crew in a distant, 
isolated environment and subjects them to unique risks and 
vulnerabilities. Like small cities, cruise ships experience 
crimes, from petty to profoundly tragic. But city dwellers know 
the risks of urban life, and no one falls off a city never to 
be heard from again. Cruise passengers can be blinded to the 
very real perils of the sea by ship operators unwilling to 
interrupt the party for security warnings. After an incident 
occurs, a thorough investigation can be profoundly difficult 
when the crime scene literally floats away, on schedule, to the 
next port of call.
    Jurisdictional and bureaucratic tangles can also impede 
investigation and resolution of crimes at sea. For purely 
economic reasons, most commercial ships fly under foreign 
flags. Passengers cannot assume the protection of U.S. laws and 
law enforcement will be available in time, if at all. When 
events involve citizens of different nations in the territorial 
waters of a third, all three can assert some jurisdictional 
claim. While these legal and diplomatic niceties are being 
resolved, the crime trail grows cold and crucial evidence may 
go overboard or melt into the crowd ashore.
    The recently promulgated National Strategy for Maritime 
Security and the Global Maritime Response Plan should better 
integrate and accelerate Federal agency assistance to those 
attacked at sea. We will monitor implementation of these new 
policies closely.
    Lack of hard data on maritime crime rates and trends 
engenders a false sense of security and frustrates efforts to 
address emerging problems. Some companies report incidents 
voluntarily to the Federal Bureau of Investigation or 
international organizations. But others do not, and no truly 
industry-wide data is available to help discerning customers 
assess the real risks of transoceanic travel.
    So we asked those most involved in responding to maritime 
crises to describe current legal and operational security 
standards. For instance, what statistics are kept and who keeps 
them? What information is given to passengers on the risks of 
international travel by sea? How are missing person reports 
investigated? How and when is it determined if a crime is 
involved? How are jurisdictional conflicts resolved? Are there 
better practices and technologies that should be used to 
protect passengers in the alluring but unforgiving marine 
environment?
    Last July, George Smith and his new wife, Jennifer, thought 
they were launching their lives together on a honeymoon cruise. 
But after only 10 days abroad George disappeared under 
circumstances still being investigated by the FBI and Turkish 
officials. His family, and many others who have contacted us, 
seek closure, await justice, and ask that no more families 
endure avoidable tragedies.
    We hear their call for safer seas, are determined, are 
absolutely determined to pursue this investigation, and we look 
for much greater candor, accountability, and responsiveness 
from those entrusted to carry precious cargo into a vast, 
inherently hazardous realm.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T7923.001
    
    [GRAPHIC] [TIFF OMITTED] T7923.002
    
    Mr. Shays. At this time the Chair would recognize Mrs. 
Maloney, the Honorable Member from New York.
    Mrs. Maloney. I thank the chairman. Elijah Cummings, the 
ranking member, is on the floor at this point. He will be back 
shortly.
    I add my voice in thanking you, Chairman Shays, for holding 
this hearing today about international maritime security and 
the safety of cruise ship passengers, particularly American 
passengers. Millions of people take trips on cruise ships every 
year, and these Americans expect to have an enjoyable vacation, 
yet they also may unknowingly face dangers, including drug 
trafficking, smuggling, international piracy, and even 
terrorist attacks.
    We have seen media reports this year of passengers who have 
disappeared while aboard cruise ships and allegations that 
these ships did not make an effort to inform their families. I 
want to say that there are roughly 300 large cruise ships that 
operate mostly under foreign flags, but many of them embark 
from New York City, the port that I am honored to represent. 
They are important employers, important to the economy. But it 
is also very important that our citizens be protected on these 
ships.
    I am astonished at the number of alleged international 
piracy acts and even some terrorist attacks on cruise ships. 
And I am also deeply concerned that there appears not to be any 
statistics or hard data kept in an organized way on the safety 
of certain ships on the incidents that happen and really 
suggest that we include a cruise ship violence or deaths or 
missing persons in the FBI CODIS international and national 
data base that they now keep on other crimes in our country.
    Due to the fact that we have such a distinguished set of 
speakers and many panelists, I request to have the text of my 
statement put in the record, and I am very hopeful that today's 
hearing will shed important light on some of these issues and 
will fundamentally lead to increased safety and protection for 
Americans and others who enjoy these cruise ship vacations.
    Thank you.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T7923.003

    Mr. Shays. I thank the gentlelady.
    This is a joint hearing of both the Subcommittee on 
National Security, Emerging Threats, and International 
Relations, which I chair. We have oversight over Defense, State 
Department, Homeland Security, and Coast Guard. The 
Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources is chaired by Mark Souder. This is a joint hearing of 
our subcommittees, and Mr. Souder was stuck in an airplane. I 
didn't realize you would be back as quickly as you have been, 
or I would have held up the hearing. I was told it would be a 
little longer than that. So welcome. Mr. Souder has the floor.
    Mr. Souder. I thank the chairman, and it is a privilege to 
do this joint hearing. We are both senior members of Homeland 
Security, too, so this cuts multiple ways. I appreciate his 
efforts in particular in organizing this hearing, and I look 
forward to addressing this important subject.
    The security of the world's shipping lanes is a global 
issue that impacts global economic growth and stability. The 
United States needs to ensure that the oceans are safe for 
lawful private and public activities.
    In October 2005, the Department of Homeland Security, in 
collaboration with the Department of Defense and the Department 
of State announced the completion and final approval of eight 
plans to promote maritime security. As we will hear today, one 
of these plans, the Maritime Operational Threat Response Plan, 
aims to coordinate the U.S. Government's response to threats 
against the United States and its interests on the high seas by 
establishing roles and responsibilities that enable the 
Government to respond quickly and decisively. The plan 
identifies the lead U.S. agency for incidents that involve U.S. 
citizens or interests, including counterterrorism operations, 
the detection, interdiction, and disposition of targeted cargo, 
people, and vessels, the attacks of vessels with U.S. citizens 
aboard or those affecting U.S. interests anywhere in the world.
    This new plan and process establishes the protocols and 
procedures for achieving a coordinated response and ensuring a 
desired outcome. I look forward to discussing these maritime 
security issues today with representatives from the Department 
of Defense, Coast Guard and the Federal Bureau of 
Investigation, and hearing about the progress and improvements 
we have made with regard to maritime threats and responsive 
capabilities.
    Piracy and criminal acts against ships are not only 
happening in action adventure films. These incidents occur 
regularly within the maritime domain. According to the most 
recent International Maritime Organization's crime report, July 
through September 2005, which compiles reports for the 
worldwide maritime industry, in the last 3-month report period 
there were 27 crew members that were held hostage or kidnapped; 
15 crew members were assaulted; the fate of 11 crew member was 
unknown; 7 crew members were injured; and 1 ship and 2 tugboats 
and barges were hijacked or missing. All of these incidents 
within a 3-month period.
    The cruise ship industry is not immune to piracy or 
criminal activity. On November 5, 2005, the Bahamian-flagged 
vessel ship Seabourn Spirit was approached by two armed small 
boats about 100 miles off the coast of Somalia. The cruise ship 
was apparently able to thwart their attackers by maneuvering to 
avoid being boarded, but only after rocket-propelled grenades 
were fired by the pirates. The Seabourn Spirit had 43 U.S. 
citizens on board.
    The FBI reports that from fiscal year 2000 through June 
2005, they opened 305 cases addressing crimes on the high seas. 
Over the past 5 years, sexual assaults made up 45 percent of 
the cases, and physical assaults were 22 percent of the cases 
on cruise ships that were reported to the FBI. Missing persons 
comprised 10 percent of the cases opened, and death 
investigations made up 8 percent of the reported cases.
    As common as these crimes are, the U.S. Government's 
response to crimes in the maritime domain is oftentimes 
complicated and the investigations are prolonged. In the case 
of cruise ships, most are foreign-flagged and, thus, fall 
outside of U.S. law enforcement jurisdiction when not in a U.S. 
port and within U.S. territorial seas. Consequently, U.S. 
Federal law enforcement agencies are required to seek 
permission from the ship's flag state before they can board the 
vessel and begin a criminal investigation. The U.S. 
Government's response can also be dependent upon the type of 
crime that was committed, the location of the ship when the 
crime was committed, the nationality of the subject or victim, 
and the United States' relationship with other affected 
countries.
    Once a crime has been discovered or reported on board a 
cruise ship, any delay in preserving evidence can potentially 
lead to the loss of evidence. I hope to learn today what 
responsibilities the cruise ships bear in preserving the crime 
scene and any related evidence until U.S. law enforcement 
officials arrive on board and can begin investigating the 
incident. Cruise ships are often compared to self-sustaining 
floating cities. If the vast majority of passengers on board 
the cruise ship are American citizens, is there a need for the 
U.S. Government to require a continuous law enforcement 
presence on board these mobile cities?
    I look forward to discussing whether jurisdictional 
conflicts are a major impediment to the security of U.S. 
citizens while traveling on foreign-flagged vessels and if 
Congress needs to change the laws to better protect U.S. 
citizens. I would like to thank the panelists today for your 
participation, and we look forward to your testimony and 
insight into this important topic. Additionally, I would like 
to thank the families of those who have been victimized on 
cruise ships for being here today and for submitting written 
statements for the record.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T7923.004
    
    [GRAPHIC] [TIFF OMITTED] T7923.005
    
    Mr. Shays. Thank you.
    At this time the Chair would recognize Congresswoman 
Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. I want to 
thank the two astute Chairs for understanding that the 
relationship between the two subcommittees on this issue is 
joined at the hip and that we need to both look at this matter, 
not because we fear or want people not to go on cruise ships, 
but because they are increasingly popular and our job is to 
look at the safety of American citizens wherever they happen to 
be.
    You know, I have never been on a cruise ship. I feel very 
deprived. And now I don't know whether I am supposed to be 
afraid to go on one or not. Maybe this hearing will enlighten 
me on that score.
    A cruise ship is not a public conveyance, and normally, you 
know, a private business that goes on the high seas, there is a 
lot of incentive--namely, liability--if the passengers are from 
the United States of America to take every precaution. But 
here, of course, the interests of other nations are involved. 
Once we get into the complicated conflict of laws area, have 
mercy on us.
    When I learned that more than 300 crimes were committed on 
the high seas involving American passengers, I was at first 
alarmed. But, you see, I don't know enough about what those 
crimes involve, and I would rather much think that most of them 
had to do with the kind of crimes that go on in the United 
States of America, of Americans, by Americans, than terrorist 
crimes, or else I would have heard about them. Therefore, this 
notion that has been raised by my colleagues before me about 
data could not be more important. We need to know more than we 
know, and it needs to be readily available. In other words, I 
need to know whether the problem is with thugs or terrorists, 
and so do the people who run ships, because that way they can 
decide perhaps more efficiently where their own resources 
should go.
    I have to tell you, though, that even one of these 
incidents involving piracy is bound to be much larger than 
life, to hurt the industry, and, for that matter, to say to 
Americans here is yet another place you cannot go. You know, I 
remember the Achille Lauro matter. That was so long ago I had 
to kind of dredge my memory. But I read an article, and let me 
just read a few of the words that I am sure others read as 
well. This is from the Miami Herald. It spoke of the attack 
that I think one of my colleagues has mentioned off the waters 
of Somalia where crew members fended them off with hoses and 
sonic devices that blast painful loud noises in a directed 
beam. They were talking about pirates, because obviously a U.S. 
ship or a passenger cruise ship, otherwise known as a luxury 
ship, is an inviting target. In some ways it is an inviting 
target, and apparently the challenge was taken up. Nobody was 
injured or killed, unlike the horrible incident aboard the 
Achille Lauro, but it is time enough now to look into the 
nature of the crimes to see whether the industry is taking care 
of it by itself and to see, importantly, if the interests of 
the United States of America are taken care of in the way we 
regulate these ships and indicate our expectations of them when 
they have passengers of the United States of America aboard.
    So I thank you again, both of you, for this hearing.
    Mr. Shays. I thank the gentlelady, and at this time the 
Chair would recognize Mr. Duncan. Thank you for being here.
    Mr. Duncan. Well, thank you very much, Chairman Shays, and 
thank you for calling this hearing. I am now serving my 9th 
full term and part of a 10th term. In all of that time I have 
served on several committees and several subcommittees under 
many different chairmen, both Democrats and Republicans, and I 
have always felt that Chairman Shays was one of the most active 
and one of the finest chairmen I have ever served under. And, 
of course, Chairman Souder is a good friend of mine also. I do 
not happen to serve on his subcommittee, but this hearing today 
is another example of how this subcommittee that Chairman Shays 
chairs is certainly one of the most active and interesting 
subcommittees in the Congress.
    It is good that we are hopefully going to learn more about 
this. For instance, in skimming over the testimony of the 
witnesses and also a report that we have from the staff, it 
says that there are only about 50 crimes reported each year to 
the FBI of the 10 million passengers who travel on the cruise 
lines each year. In the last 2 years, there have been 13 
missing people, and certainly we do not want to minimize the 
tragedy, and I do not mean to do that at all, of anyone who is 
killed or missing. On the other hand, there are some 2,000 
people that go missing each day in this country, and from the 
looks of some of those statistics it looks like that it is far, 
far safer to go on a cruise than it is to just walk down the 
street in any town or city in America.
    On the other hand, Chairman Souder mentioned some crimes or 
statistics that certainly should be of concern, and I guess one 
question is, are we making sure that all of these crimes are 
reported? And I understand the International Council of Cruise 
Lines, there is some sort of agreement, I see from the staff, 
that these crimes are required to be reported. But we have this 
danger today of doing legislation or reacting in response to 
what is being emphasized on the 24-hour news channels at a 
particular time, and certainly the terrible tragedy that 
happened to the newlyweds George and Jennifer Smith is 
certainly a sad thing and a terrible thing. But, on the other 
hand, I know that when Katrina happened, we immediately sent 
down $10 billion, and then we came back and very quickly voted 
another $62 billion, and then it turned out that people all 
over the country thought we overreacted there and sent perhaps 
too much money too fast, and then people started questioning 
that.
    So we cannot blame piracy on the cruise lines, I would not 
think. The terrorism, of course, everybody has really toughened 
up on that, as they should have, since September 11th. But I 
understand that the passenger lists are being given to the 
proper authorities and every piece of luggage that goes on one 
of these cruise ships is being screened.
    So maybe more needs to be done. On the other hand, if the 
problem is consistent with these statistics that are in the 
materials I have been given by the staff, then in some ways the 
cruise line industry should be commended. But if we need to do 
more or if something is not being reported or we need more 
information, then that is good, too. If this problem is greater 
than it appears on the surface, then certainly this hearing 
should help show that.
    So I thank both chairmen for calling this hearing today. 
Thank you.
    Mr. Shays. I thank the gentleman for his thoughtful 
comments, and that is the way we need to approach this hearing. 
We need to go wherever the truth leads us. Whether it is an 
issue of law or regulation or administrative efforts or 
whether, in fact, it is getting the industry to just do a 
better job, it may be some or all of the above.
    But one thing I can assure the gentleman is this will not 
be the only hearing, and it will be thorough, and everyone will 
have an opportunity to state the issue as clearly as they can.
    Mr. Duncan. Well, I certainly appreciate that approach, and 
that is the approach that I assumed that you would take. Thank 
you.
    Mr. Shays. Thank you, and I thank the gentleman for his 
kind words.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Chairman Shays and Chairman Souder, I 
want to thank you for focusing on this issue. I serve on both 
your subcommittees, and you do go to the relevant issues.
    I am familiar with port security. I represent the port of 
Baltimore. I also am co-Chair of the National Port Security 
Caucus. We have 539 ports in this country, and I am also on the 
Intelligence Committee. So I deal a lot in these areas.
    What is really relevant about this hearing today is that a 
lot of our focus with respect to ports generally has been more 
on weapons of mass destruction and terrorism and issues such as 
that. So I think this hearing today is extremely relevant.
    I also would like to acknowledge the Coast Guard, who I 
think is one of the better agencies we have in this country, 
and our country should be proud of their professionalism and 
the dedication of the members of the Coast Guard. They have 
done an excellent job. They showed that in Katrina. I think 
they have done a good job.
    Now, maritime security is a very complicated issue. There 
are different times when different agencies and different 
countries have the right to board vessels and protect the 
people and the vessel. We must answer the questions, though, 
about safety. What laws apply in what situations? The FBI and 
the Coast Guard in our area, in our jurisdiction, share the 
burden of enforcing maritime jurisdiction. But who takes the 
lead? Who is ultimately responsible? What if there is a 
difference of opinion?
    I think Katrina is another issue that showed that we need 
to have a plan and that we need to have someone in charge who 
is going to determine what the system is and how we are going 
to enforce it.
    Now, it is important to determine who is in charge, as I 
said, a system in place, when the cruise ships travel outside 
of our jurisdiction and our borders. Each year approximately 10 
million passengers take cruises. I think there are about 300 
cruise ships that deal with these 10 million passengers, and 
one-half, or 5 million of those passengers, come from North 
America. So it is an extremely relevant issue to our country 
and how we deal with the issue.
    Now, in fairness to the cruise ship industry, I have been 
told by the Coast Guard that the maritime travel on the cruise 
ships is among the safest modes of transportation available. 
The International Council of Cruise Lines should be commended 
for maintaining standards as it relates to safety. But high 
standards are not enough--the reason why we are here today--and 
we must continually work to improve.
    Now, one question that we can ask and that I think is 
relevant--and I am going to ask it when we get to questions--is 
the issue about deadlines. We know that there is a lot of money 
involved in this industry. We know that when you leave one 
port, that ship has to get back to another port to pick up 
maybe 2,000 passengers. If they are late and they are not 
there, there are going to be a lot of unhappy people. And I 
just wonder what the system is as far as deadlines. Do we force 
our captains of those ships to travel into storms and unsafe 
places instead of waiting it out or taking another direction 
because of deadlines, because we have to pick up the next 
passengers? Because it is extremely important that the No. 1 
priority should be safety, even if it means a delay. And I 
would like to know what that system is because I have heard 
many complaints about going through storms, you know, not 
having a very positive experience, but the captain has to go to 
the next port to pick up the new group that is coming in.
    It is critical that we all work together, and that is why 
we are here today. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    Let me take the opportunity to ask unanimous consent that 
all members of the subcommittees be permitted to place an 
opening statement in the record and that the record remain open 
for 3 days for that purpose, and without objection, so ordered.
    I ask further unanimous consent that all witnesses may be 
permitted to include their written statements in the record, 
and without objection, so ordered. And I am also going to ask 
unanimous consent that Ms. Jennifer Hagel Smith, wife of Mr. 
George A. Smith IV, and Mr. George Smith and Ms. Maureen Smith, 
and Ms. Bree Smith, family of Mr. George A. Smith IV, be 
allowed to submit a statement for the record; and Ms. Jean 
Scavone, mother of Mr. James Christopher Scavone, be allowed to 
submit a statement, and Mr. Michael Pham, son of Mr. Hue V. 
Pham and Mrs. Hue T. Tran, be permitted to submit a statement; 
and Mr. and Mrs. Kendall Carver, parents of Ms. Merrian Lynn 
Carver, be permitted to submit a statement; and Ms. Rita 
Sittig, mother of Mr. Christopher Caldwell, be allowed to 
submit a statement; and also Mr. and Mrs. Ira Leonard as well. 
And then we have two statements from attorneys, one 
representing the Smith family and one representing the Dias 
family, and without objection, their statements will be 
submitted for the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7923.013
    
    [GRAPHIC] [TIFF OMITTED] T7923.014
    
    [GRAPHIC] [TIFF OMITTED] T7923.015
    
    [GRAPHIC] [TIFF OMITTED] T7923.016
    
    [GRAPHIC] [TIFF OMITTED] T7923.017
    
    [GRAPHIC] [TIFF OMITTED] T7923.018
    
    [GRAPHIC] [TIFF OMITTED] T7923.019
    
    [GRAPHIC] [TIFF OMITTED] T7923.020
    
    [GRAPHIC] [TIFF OMITTED] T7923.021
    
    [GRAPHIC] [TIFF OMITTED] T7923.022
    
    [GRAPHIC] [TIFF OMITTED] T7923.023
    
    [GRAPHIC] [TIFF OMITTED] T7923.024
    
    [GRAPHIC] [TIFF OMITTED] T7923.025
    
    [GRAPHIC] [TIFF OMITTED] T7923.026
    
    [GRAPHIC] [TIFF OMITTED] T7923.027
    
    [GRAPHIC] [TIFF OMITTED] T7923.028
    
    [GRAPHIC] [TIFF OMITTED] T7923.029
    
    [GRAPHIC] [TIFF OMITTED] T7923.030
    
    [GRAPHIC] [TIFF OMITTED] T7923.031
    
    [GRAPHIC] [TIFF OMITTED] T7923.032
    
    [GRAPHIC] [TIFF OMITTED] T7923.033
    
    [GRAPHIC] [TIFF OMITTED] T7923.034
    
    [GRAPHIC] [TIFF OMITTED] T7923.035
    
    [GRAPHIC] [TIFF OMITTED] T7923.036
    
    [GRAPHIC] [TIFF OMITTED] T7923.037
    
    [GRAPHIC] [TIFF OMITTED] T7923.038
    
    [GRAPHIC] [TIFF OMITTED] T7923.039
    
    [GRAPHIC] [TIFF OMITTED] T7923.040
    
    [GRAPHIC] [TIFF OMITTED] T7923.041
    
    [GRAPHIC] [TIFF OMITTED] T7923.042
    
    [GRAPHIC] [TIFF OMITTED] T7923.043
    
    [GRAPHIC] [TIFF OMITTED] T7923.044
    
    [GRAPHIC] [TIFF OMITTED] T7923.045
    
    [GRAPHIC] [TIFF OMITTED] T7923.046
    
    [GRAPHIC] [TIFF OMITTED] T7923.047
    
    [GRAPHIC] [TIFF OMITTED] T7923.048
    
    [GRAPHIC] [TIFF OMITTED] T7923.049
    
    [GRAPHIC] [TIFF OMITTED] T7923.050
    
    [GRAPHIC] [TIFF OMITTED] T7923.051
    
    [GRAPHIC] [TIFF OMITTED] T7923.052
    
    [GRAPHIC] [TIFF OMITTED] T7923.053
    
    [GRAPHIC] [TIFF OMITTED] T7923.054
    
    [GRAPHIC] [TIFF OMITTED] T7923.055
    
    [GRAPHIC] [TIFF OMITTED] T7923.056
    
    [GRAPHIC] [TIFF OMITTED] T7923.057
    
    [GRAPHIC] [TIFF OMITTED] T7923.058
    
    [GRAPHIC] [TIFF OMITTED] T7923.059
    
    [GRAPHIC] [TIFF OMITTED] T7923.060
    
    [GRAPHIC] [TIFF OMITTED] T7923.061
    
    [GRAPHIC] [TIFF OMITTED] T7923.062
    
    [GRAPHIC] [TIFF OMITTED] T7923.063
    
    [GRAPHIC] [TIFF OMITTED] T7923.064
    
    [GRAPHIC] [TIFF OMITTED] T7923.065
    
    [GRAPHIC] [TIFF OMITTED] T7923.066
    
    [GRAPHIC] [TIFF OMITTED] T7923.067
    
    [GRAPHIC] [TIFF OMITTED] T7923.068
    
    [GRAPHIC] [TIFF OMITTED] T7923.069
    
    [GRAPHIC] [TIFF OMITTED] T7923.070
    
    [GRAPHIC] [TIFF OMITTED] T7923.071
    
    [GRAPHIC] [TIFF OMITTED] T7923.072
    
    [GRAPHIC] [TIFF OMITTED] T7923.073
    
    [GRAPHIC] [TIFF OMITTED] T7923.074
    
    [GRAPHIC] [TIFF OMITTED] T7923.075
    
    [GRAPHIC] [TIFF OMITTED] T7923.076
    
    [GRAPHIC] [TIFF OMITTED] T7923.077
    
    [GRAPHIC] [TIFF OMITTED] T7923.078
    
    Mr. Shays. Their statements are also available to the 
press, and before swearing in our witnesses, I want to say that 
we considered having the families open up this hearing and some 
of the families were willing to do it and some were wondering 
if it was what they wanted to do at this time. We will have 
another hearing in which all family members will participate. 
We thought we would make this a more generic or more macro 
hearing, not on particular cases right now, and then we would 
decide how we would determine what hearings to have in the 
future, and there will be other hearings that will follow this 
one.
    At this time we will swear in our witnesses, and first let 
me acknowledge them: Mr. Chris Swecker, Assistant Director, 
Criminal Investigation Division, the Federal Bureau of 
Investigation [FBI]; Rear Admiral Wayne Justice, Director for 
Operations Policy, U.S. Coast Guard, accompanied by Rear 
Admiral John Crowley, Judge Advocate General, U.S. Coast Guard; 
and another statement or a third statement submitted by Rear 
Admiral James McPherson, Judge Advocate General for the U.S. 
Navy.
    Gentlemen, as you know, this is an investigative committee 
and we swear in all of our witnesses, and I would ask you to 
rise.
    [Witnesses sworn.]
    Mr. Shays. Note for the record all our witnesses responded 
in the affirmative, and I am going to give the chair to Mr. 
Souder, who will take care of chairing.
    Mr. Souder [presiding]. Thank you very much.
    Mr. Swecker, you will have the opening statement.

   STATEMENTS OF CHRIS SWECKER, ASSISTANT DIRECTOR, CRIMINAL 
 INVESTIGATION DIVISION, FEDERAL BUREAU OF INVESTIGATION; REAR 
  ADMIRAL WAYNE JUSTICE, DIRECTOR OF OPERATIONS POLICY, U.S. 
 COAST GUARD, ACCOMPANIED BY REAR ADMIRAL JOHN CROWLEY, JUDGE 
 ADVOCATE GENERAL, U.S. COAST GUARD; AND REAR ADMIRAL JAMES E. 
          McPHERSON, JUDGE ADVOCATE GENERAL, U.S. NAVY

                   STATEMENT OF CHRIS SWECKER

    Mr. Swecker. Good afternoon, Chairman Shays, Chairman 
Souder, ranking members, and members of the subcommittees. We 
appreciate the opportunity to come before you today.
    As you know, approximately 10 million Americans are 
expected to travel abroad this year on vessels that navigate 
international waters. As a matter of course, some of them will 
become victims of a crime. The FBI's ability to assist our 
fellow Americans who may fall victim to crime in international 
waters will be affected by a variety of factors, including the 
type of crime that was committed, where the ship was when it 
was committed, where the ship departed, where it arrives, and 
under which nation's laws the ship is registered, the 
nationality of the subject or victim, the laws of other affects 
countries, international law, and the United States' 
relationship with other affected countries.
    Over the last 5 years, the FBI opened 305 cases of crime on 
the high seas. Sexual and physical assaults on cruise ships 
were the leading maritime crimes reported to and investigated 
by the FBI, at 45 and 22 percent, respectively. Missing persons 
cases comprised 10 percent of cases opened, and death 
investigations comprised 8 percent. Recently, incidents of 
piracy have been increasingly common in some parts of the 
world, the most recent, of course, being the attack on the 
cruise ship containing U.S. citizens off the coast of Somalia 
in November 2005.
    Missing persons cases are more sporadic in nature, and, 
unfortunately, in 75 percent of these cases, a body is never 
found. Most deaths reported occur on commercial ships. Death 
investigations are less common on cruise ships and private 
vessels.
    Because these offenses occur in international waters and 
involve the citizens or interests of other countries, the 
exercise of the U.S. special maritime and territorial 
jurisdiction will encroach to some degree on the interests and 
sovereignty of another nation. Therefore, our diplomatic 
relations with other involved countries, the existence and 
applicability of any treaties with these countries, and the 
extent to which we are ultimately dependent upon another 
country's mutual cooperation and assistance will often 
determine the actual extent of U.S. authority to investigate 
and prosecute U.S. extraterritorial offenses against U.S. 
citizens.
    The principal law under which the U.S. exercises is special 
maritime and territorial jurisdiction is set forth in Section 7 
of Title 18 of the U.S. Code. Under this statute, the United 
States has jurisdiction over crimes committed on a ship if: the 
ship, regardless of flag, is a U.S.-owned vessel, either in 
whole or in part, regardless of the nationality of the victim 
or the perpetrator; or the crime occurs in the U.S. territorial 
sea, within 12 miles of the coast, regardless of the 
nationality of the vessel, the victim, or the perpetrator; or 
the victim or perpetrator is a U.S. national on any vessel that 
departed from or will arrive in a U.S. port.
    The most important point to emphasize in these matters is 
that in all cases of suspected criminal activity or terrorism, 
the FBI should be contacted by the ship's personnel or 
passengers, regardless of potential jurisdictional issues. The 
FBI now has approximately 59 legal attache offices around the 
globe. These offices have developed close working relationships 
with our international law enforcement partners to assist in 
these investigations, and the number of these legal attache 
offices will continue to grow in the coming years.
    As in any other matter, the FBI will first determine if we 
have jurisdiction to investigate the matter and, if so, what 
assistance we will require from other U.S. or foreign law 
enforcement authorities. If the vessel has docked or will be 
docking in a U.S. port, FBI agents will be able to conduct the 
investigation in much the same manner as in any other 
investigation. If the vessel has docked or will be docking in a 
foreign port, the FBI Legat office will work with and assist 
foreign authorities to the greatest extent possible to protect 
U.S. citizens and interests. They will not, however, be able to 
conduct an investigation as if they were on U.S. soil. In many 
cases, they will have to depend on the cooperation of foreign 
authorities, who will actually conduct the investigation. 
However, other countries may allow us to take a more active 
role in the investigations. In general, most countries are 
cooperative and work with us to develop evidence, to provide 
that evidence to us, and to assist our efforts to prosecute 
appropriate cases in U.S. courts.
    As in any other investigation, the FBI will attempt to 
conduct, or to have conducted, any necessary investigation and 
preserve any potential evidence as soon as it is practically 
possible or reasonable. The FBI will attempt to board vessels 
prior to their docking or immediately upon their arrival in 
port to begin an investigation, if that is reasonable and 
practical. We will directly, or indirectly in cooperation with 
foreign counterparts, conduct all interviews, collect all 
evidence, and where appropriate, seek the indictment and 
prosecution of the case in U.S. courts.
    If the crime occurs within the reach of the U.S. Coast 
Guard, we work together to address any criminal threat. The key 
to this successful relationship has been and continues to be 
effective communication, intelligence sharing, coordination, 
and cooperation.
    I would like to give you a quick overview of the FBI's 
roles and responsibilities under the National Strategy for 
Maritime Security and the Maritime Operational Threat Response 
Plan.
    The FBI's maritime responsibilities have not changed as a 
result of the MOTR plan. However, in response to the 
President's National Strategy for Maritime Security, we have 
initiated a maritime security program to prevent, disrupt, and 
defeat criminal acts of terrorism directed against maritime 
assets and provide counterterrorism preparedness, leadership, 
and assistance to Federal, State, and local agencies 
responsible for maritime security. The FBI currently has 
approximately 82 maritime liaison agents assigned to those 
field offices that have active commercial ports. The MLAs 
interact with private industry, State and local port 
authorities, to include law enforcement and other Federal 
agencies with maritime responsibilities, such as the Coast 
Guard. MLAs are assigned to Joint Terrorism Task Force squads 
in the field, and their ranks include special agents of the 
FBI, Coast Guard Investigative Service, Naval Criminal 
Investigative Service, as well as officers from local port 
authority and police departments.
    Chairmen and members of the subcommittees, thank you again 
for the opportunity to testify today, and I am not sure if we 
have time limits, but I am sure I am probably pushing mine 
right now. So thank you.
    [The prepared statement of Mr. Swecker follows:]

    [GRAPHIC] [TIFF OMITTED] T7923.079
    
    [GRAPHIC] [TIFF OMITTED] T7923.080
    
    [GRAPHIC] [TIFF OMITTED] T7923.081
    
    [GRAPHIC] [TIFF OMITTED] T7923.082
    
    [GRAPHIC] [TIFF OMITTED] T7923.083
    
    [GRAPHIC] [TIFF OMITTED] T7923.084
    
    [GRAPHIC] [TIFF OMITTED] T7923.085
    
    [GRAPHIC] [TIFF OMITTED] T7923.086
    
    [GRAPHIC] [TIFF OMITTED] T7923.087
    
    [GRAPHIC] [TIFF OMITTED] T7923.088
    
    Mr. Souder. Thank you very much.
    Admiral Justice, thank you for coming.

  STATEMENT OF ADMIRAL WAYNE JUSTICE AND ADMIRAL JOHN CROWLEY

    Admiral Justice. Good afternoon, Mr. Chairman, 
distinguished members. It is a pleasure for me and Rear Admiral 
John Crowley, the Judge Advocate General of the U.S. Coast 
Guard, to appear before you today to discuss jurisdiction and 
coordination of assistance in the context of international 
maritime security.
    The maritime domain covers nearly three-quarters of the 
Earth's surface and is, by far, the greatest defining feature 
of our world. Plying this vast expanse are more than 40,000 
large merchant ships and virtually uncountable numbers of small 
craft carrying people from place to place and nearly all the 
raw materials and finished products in modern trade.
    As mentioned, on November 5th this year two armed boats 
approached the Bahamian-flagged cruise ship Seabourn Spirit 100 
miles off the coast of Somalia, fired rocket-propelled 
grenades, and attempted to board the vessel, which had 43 
American citizens on board. That crew implemented their 
required ship's security plan and maneuvered to escape and 
evade their attackers.
    While no single nation has the authority or the resources 
to patrol and secure the entire maritime domain, the United 
States continues to lead the world's efforts to achieve greater 
maritime security, and the Coast Guard is at the forefront of 
those efforts. Indeed, immediately following September 11th, 
the leadership and vision of the U.S. Government led to the 
creation of a modern, international ship and port security 
regime, ISPS, which appears to have contributed to thwarting 
the attempted piracy aboard the Seabourn Spirit.
    As the Nation's primary maritime law enforcement agency, an 
armed force, and lead DHS agency for maritime security, the 
Coast Guard has significant authorities and capabilities with 
regard to international maritime security. However, the complex 
jurisdictional challenges presented by the global shipping 
industry and the vast size of the maritime environment require 
extensive cooperation between nations, agencies, and industry.
    Although there were 43 American citizens aboard Seabourn 
Spirit, that ship was subject to the jurisdiction of the 
Bahamas, and the U.S. citizens aboard here were, as a matter of 
law, constructively in the Bahamas. In any case involving 
suspect criminal activity directed at or aboard a foreign-
flagged vessel on the high seas, close and immediate 
international cooperation is required to board the vessel at 
sea, investigate the facts, collect evidence, and sort out the 
jurisdiction of various states with interests in this matter.
    In fiscal year 2005, working with our interagency and 
international partners, the Coast Guard enhanced maritime 
homeland security by seizing over 300,000 pounds of cocaine at 
sea, much of it bound for the United States, and by bringing to 
the United States over 360 foreign nationals from foreign-
flagged and stateless smuggling vessels for prosecution. This 
regime for interdicting and prosecuting drug smugglers is a 
model of success based on widely recognized international law 
and strong domestic implementing legislation.
    From a practical standpoint, the U.S. Government response 
option is dependent on how quickly the U.S. Government is 
notified of an incident and the availability of assets in the 
particular region. If available, any warship or Government 
vessel on non-commercial service may, with flag state consent, 
conduct a boarding to investigate or suppress suspected acts of 
piracy. Cases of piracy, like the Seabourn Spirit, are exactly 
what recent amendments to the Convention for the Suppression of 
Unlawful Acts against the Safety of Maritime Navigation, or 
SUA, address. The amended SUA provides unprecedented tools, 
including an expanded list of offenses and a comprehensive 
framework for boarding suspect vessels at sea to prevent and 
suppress acts of terrorism, violence at sea, and illicit WMD 
proliferation activities as they are committed.
    I note also that the amendments to SUA support the 
President's Proliferation Security Initiative [PSI], which 
provides a framework for international cooperation to combat 
the spread of weapons of mass destruction, their means of 
delivery, and related materials throughout a variety of 
measures including maritime interdiction. The Maritime 
Operational Threat Response [MOTR], Plan is part of the 
President's National Strategy for Maritime Security. The 
Maritime Operation Threat Response includes the deployment of 
capabilities and the use of force required to intercept, 
apprehend, exploit, and when necessary, defeat maritime threats 
that affect U.S. interests anywhere in the world. MOTR 
addresses the full range of maritime security threats, 
including actionable knowledge of or acts of terrorism, piracy, 
and other criminal and unlawful or hostile acts committed by 
state and non-state actors. The MOTR plan establishes the 
protocols and procedures for achieving a coordinated U.S. 
Government notification and will improve the ability of the 
United States to bring the right assets and authorities to bear 
when a maritime threat affects American interests anywhere in 
the world.
    The operational response to counter threats to U.S. 
citizens involving pirates or other non-state actors occurring 
aboard non-U.S. vessels in waters not subject to U.S. 
jurisdiction is operationally, logistically, and diplomatically 
challenging. The ISPS Code, amendments to the SUA Convention, 
the Proliferation Security Agreement, the National Strategy for 
Maritime Security, and the MOTR plan are some of the 
significant initiatives undertaken by the United States to 
increase operational options and better protect U.S. citizens 
and U.S. interests throughout the maritime domain in the 21st 
century.
    Thank you, sir, for the opportunity to testify today, and 
Rear Admiral Crowley and I will be happy to answer any 
questions that you may have.
    [The prepared statement of Admiral Justice follows:]

    [GRAPHIC] [TIFF OMITTED] T7923.089
    
    [GRAPHIC] [TIFF OMITTED] T7923.090
    
    [GRAPHIC] [TIFF OMITTED] T7923.091
    
    [GRAPHIC] [TIFF OMITTED] T7923.092
    
    [GRAPHIC] [TIFF OMITTED] T7923.093
    
    [GRAPHIC] [TIFF OMITTED] T7923.094
    
    [GRAPHIC] [TIFF OMITTED] T7923.095
    
    [GRAPHIC] [TIFF OMITTED] T7923.096
    
    [GRAPHIC] [TIFF OMITTED] T7923.097
    
    [GRAPHIC] [TIFF OMITTED] T7923.098
    
    [GRAPHIC] [TIFF OMITTED] T7923.099
    
    [GRAPHIC] [TIFF OMITTED] T7923.100
    
    [GRAPHIC] [TIFF OMITTED] T7923.101
    
    Mr. Souder. Thank you.
    Admiral Crowley, do you have an opening statement as well?
    Admiral Crowley. Mr. Chairman, I do not. I stand behind 
Admiral Justice's.
    Mr. Souder. Thank you.
    Admiral McPherson.

            STATEMENT OF ADMIRAL JAMES E. McPHERSON

    Admiral McPherson. Mr. Chairman, members of the 
subcommittees, good afternoon. My name is Rear Admiral Jim 
McPherson. I am the Judge Advocate General of the Navy, and it 
is my pleasure to appear before you today as the Department of 
Defense representative on the legal aspects of threats to 
Americans on board vessels traveling outside U.S. territorial 
waters. Thank you for this opportunity to appear before you.
    Protecting the United States, its citizens, and vital 
interests from attack is our highest priority. Piracy is one of 
the many forms in which such attacks can take place. Although 
the term ``piracy'' conjures up images of historical lore, the 
legal response to piracy is well settled and reflected in both 
international obligations and our own domestic law. While 
piracy is normally addressed within a law enforcement scheme 
and both the Federal Bureau of Investigation and the U.S. Coast 
Guard could be termed the first responders, the commanding 
officer of every U.S. Navy ship has a duty and an obligation to 
protect U.S. citizens from acts of piracy wherever they may 
occur.
    Again, thank you for this opportunity. I look forward to 
your questions.
    [The prepared statement of Admiral McPherson follows:]

    [GRAPHIC] [TIFF OMITTED] T7923.102
    
    [GRAPHIC] [TIFF OMITTED] T7923.103
    
    [GRAPHIC] [TIFF OMITTED] T7923.104
    
    Mr. Souder. Thank you.
    First I would like to ask unanimous consent that we have 
10-minute questioning periods so we can develop the questions. 
Hearing no objection, let me start out. There are so many 
different ways we could go, but let me start out first by 
pointing out to the two Admirals from the Coast Guard that it 
has been very helpful to have Commander Patrick DeQuattro on as 
a detailee to our subcommittee. In general, it is helpful to 
have the Coast Guard people on the Hill. And I want to say in 
his defense any wonderful questions or comments I make today 
are his. Any others that are off the wall are mine, and he 
should not bear responsibility. I want to make that clear at 
the beginning.
    Admiral Justice, you did a pretty thorough job of 
explaining how the new Marine Operational Threat Response would 
work in the case of the pirate attack. How is this 
substantially different than what we had in place in the 
Achille Lauro?
    Admiral Justice. Currently, since 1978, we have what is 
called the PD-27 process. It is in use. We have coordinated 
thousands of maritime responses to drug and migrant 
interdiction on the high seas. As recently as yesterday, we 
used this again to effectively capture 14,000 pounds of cocaine 
in the eastern Pacific, one vessel.
    However, the MOTR plan improves the PD-27 process. It 
addresses a full range of maritime security threats, including 
acts of terrorism, piracy, and other criminal, unlawful, or 
hostile activities. The MOTR plan is a maritime-centric plan, 
whereas PD-27 is not. It applies to all maritime threats 
affecting U.S. interests, whereas PD-27 is non-maritime 
incidents. And, finally, the MOTR places initial coordination 
in the first responders' hands, whereas the PD-27 is a single 
State Department hub for coordination. It is a better plan, 
sir.
    Mr. Souder. Let me first ask a technical question that came 
up as I went through the information. Are there any crimes, Mr. 
Swecker and all the Admirals, reported to the Coast Guard or 
the Defense Department that would not be reported to the FBI? 
In other words, when we see the universe of statistics in front 
of us from the FBI, are those all the crimes that are reported 
on the high seas? Or do you each have kind of stovepiped 
information systems?
    Mr. Swecker. Well, the short answer from the FBI's 
perspective, is that we collect our own statistics based on 
what we work. I do not know of any other data that we receive 
or share regarding those crimes with the Coast Guard or the 
Navy.
    Mr. Souder. Admiral McPherson.
    Admiral McPherson. Any crimes on the high seas that come to 
our attention are reported to the FBI through our Naval 
Criminal Investigative Service, through that law enforcement 
connection.
    Mr. Souder. Is it the same for the Coast Guard?
    Admiral Crowley. Mr. Chairman, I would add that the 
President's National Maritime Security Strategy here and MOTR 
in the future advises all of us to report to each other 
incidents and threats that occur, and there will be greater 
coordination, therefore, leading to better consistency amongst 
all of the reporting sources.
    Mr. Souder. Admiral Justice, you made reference to how we 
approach narcotics, which my subcommittee particularly focuses 
on, and it is a pattern of how you are looking at some of the 
international terrorism and piracy questions, also some of the 
potential biological terrorism or nuclear terrorism. Could you 
describe a little bit in that type of relationship how you 
would interrelate with the Navy and the Defense Department and 
where kind of the territorial waters of the United States, how 
the Coast Guard and the military--Admiral McPherson, if you 
could, too--interrelate as you move into international waters? 
And does it depend on the type of threat? Is it whether the 
threat is headed to our shores, whether it is a threat to the 
military, whether it is the number of citizens on board? What 
are some of the types of criteria? Admiral Crowley? Or whoever 
best can take that question.
    Admiral Crowley. I will jump in first, Mr. Chairman, and I 
will say that there is a predisposition in the President's 
strategy to act and as a first priority to protect American 
lives; and that the on-scene responder, whether it be the 
military unit, the Coast Guard unit, the FBI unit, the agencies 
that you see here today are the leaders of the plan are to 
respond, with the predisposition to take control and take a 
leadership position, to be transitioned to a more appropriate 
organization as the facts and information is developed. And so 
I would answer the question to say that the first on scene is 
predisposed to act and take control and protect lives, and then 
we begin to sort out whether we need additional investigation, 
additional on-scene law enforcement capacity, or there is a 
defensive measure that needs to be taken.
    Mr. Souder. If a fight broke out on a cruise ship and 
violence started to occur, at what point would that principle 
apply to that? American citizens, let's say a significant 
number of American citizens, are on board. You have been 
notified that it is not exactly a terrorist attack, it is not 
piracy, but potential loss of life or loss of life has started. 
At what point do you have the ability to board, and who would 
do it? And would it be the closest? I mean, would the Navy go 
on board in that situation?
    Admiral Crowley. Mr. Chairman, certainly the United States 
is authorized to respond to masters of cruise ships seeking 
assistance for any life-threatening incident at sea with 
respect to--and I would defer to colleagues here--another 
agency's capabilities and authorities, but certainly it might 
depend on the outcome of a boarding as to who the agency is 
that conducts it. But certainly to take action to provide 
assistance to either U.S.-flagged or foreign-flagged vessels is 
a relatively easy bar to overcome.
    Mr. Souder. You would need to be asked, however, by the 
vessel, not by an individual on board who happened to reach 
you?
    Admiral Crowley. A U.S. vessel would be handled differently 
than a foreign-flagged vessel, generally speaking that a 
foreign-flagged vessel would be at the behest of the master or 
the flag state, the recognized government.
    Mr. Souder. Admiral McPherson, do you have any additional 
comments?
    Admiral McPherson. I think that is absolutely accurate. 
Oftentimes it would be pragmatically who is closest to respond 
to the call for assistance. And if it were a Navy vessel on the 
high seas, we would respond and we would secure the scene. We 
would protect lives and property, and then we would ask for 
assistance from the Coast Guard or the FBI in consonance with 
the facts.
    Mr. Souder. Mr. Swecker, I want to ask you a couple of 
questions, and I am sure we will rhyme with some coming, 
particularly on the cruise ship incidents. You get called as 
soon as an incident happens on the ship if they suspect foul 
play, or does it happen when they are in port?
    Mr. Swecker. If it is a vessel in U.S. waters, usually we 
will get a phone call. It may be from the Coast Guard. As was 
pointed out, whoever is in a position to respond the quickest 
and get there. And then from there, much like a cop on the 
street or an incident that takes place on land, it is whoever 
can get there first and assess and triage the situation. We 
could get a call from the ship. We could get a call from the 
Coast Guard. We could get a call----
    Mr. Souder. If there is a suspected killing on board, are 
you to be notified as soon as that happened or when they get 
into port?
    Mr. Swecker. Just based on the general requirement to 
report any crime, particularly if it is, as I said, in U.S. 
waters or fits into our jurisdictional scheme.
    Mr. Souder. Let's assume it is not.
    Mr. Swecker. Yes, they should report it. There is no law 
that requires that they report other than the general laws of 
the United States.
    Mr. Souder. What about securing evidence? Is evidence 
supposed to be secured if there is doubt? Under U.S. law, even 
if they are in international waters but it is a U.S. citizen, 
do they have to secure the area of evidence? When they come 
into port and you look at the area of evidence, do they--
obviously an investigation takes time, yet they have to get the 
ship out again. There have been allegations here that a 
potential crime scene was cleaned up and maybe even used by 
others. Are there laws that govern evidence? I mean, they are 
compared to floating cities, but at the same time I don't know 
any city of 3,000 in the United States that could eliminate a 
crime scene?
    Mr. Swecker. I am not aware of any laws that require that 
they preserve the crime scene. There are practical 
considerations of when and how quickly we can get there to 
process the crime scene, whether we wait for them to get to the 
next port of call, or whether it is practical to get out to the 
vessel via the Coast Guard or the Navy or some other means. But 
I am not aware of a law that requires that they preserve 
evidence. We would hope common sense would prevail in that 
situation.
    Mr. Souder. Mrs. Maloney.
    Mrs. Maloney. Thank you.
    Very troubling to me are some allegations that people have 
been missing for a week, sometimes for a month, that it is 
never reported that the person is missing. One would think that 
common decency would be that you would call the next of kin, 
you would call the port, you would call the FBI, you would call 
the Army, the Navy, everybody, and report this. But I find that 
very troubling if my daughter or son was on a cruise ship and 
was missing and no one bothered to call to tell me.
    Can somebody report on that? Should we pass a law that for 
American citizens, that cruise ships at the very least inform 
the U.S. Government and the families?
    Mr. Swecker. I am not aware of issues regarding delays in 
reporting, but we did not research that in preparation for the 
testimony. But I will say that any--I mean, a requirement that 
there be due diligence in reporting those crimes would be very 
helpful.
    Mrs. Maloney. Well, I am citing press accounts that I have 
read in the papers that people have--and then obviously you 
would secure the crime scene. There are allegations that the 
crime scenes have been cleaned up and buffed up and the clothes 
and belongings of the missing person are put in storage, and 
there is no effort to find anyone to claim this, no reporting 
anywhere. And certainly on American land, people report crimes. 
You are required to report crimes.
    And I would also like to ask the FBI about keeping 
information. I think a lot of times we do not know there is a 
problem until you have the data and the statistics to show that 
there is a problem and something needs to be done. And in 
reading press accounts, they state that there is no data 
collection or information kept on the number of people that are 
missing or, ``commit suicide or are murdered on cruise ships.'' 
Yet I know that many of my constituents tell me some of the 
finest trips they have ever had in their lives were on cruise 
ships, that it was a glorious experience and many people--I 
would say many of these cruise ships are populated by Americans 
on their various vacations.
    I know that the FBI keeps the CODIS index system on DNA. It 
is an international program. Every other day I am reading a 
story about a crime that has been solved now some 20 years 
later--rapes, assaults, all kinds of things--because of this 
excellent program, I congratulate you, and also the NIBRS, the 
National Incident-Based Reporting System. And my question to 
you is: Should we start keeping statistics on this so that we 
can gauge the extent of it? And also for the consumer to know 
that on this particular cruise ship or cruise line, no one has 
been missing ever, yet on another cruise line people seem to 
disappear? Could you comment on keeping some type of data for 
the criminal people, the people fighting crimes in our country, 
to have access to and also for consumers to have some access 
for their own safety? I can call and get a data system on 
flights, which airlines have crashes. It is kept by precincts 
in New York. You can get data of the number of murders, rapes, 
assaults, robberies. By precinct we can get this information. 
Why shouldn't we be able to get this by cruise ships?
    I am coming back to it. I am terribly concerned about 
reports that incidents have not even been reported to our 
Government or to the families. I find that incredibly, almost 
unbelievable that steps would not be taken immediately to try 
to inform people, to try to find out what happened, and if 
someone was hurt, to try to figure out how we can make sure 
people are not hurt in the future.
    So all those questions, if you could respond.
    Mr. Swecker. Well, first of all, we can only collect data 
on what is reported to us, and it is very difficult to quantify 
what is not reported. We may be able to collect information 
on----
    Mrs. Maloney. Do you think we should require that this 
information be supplied to the FBI on American citizens?
    Mr. Swecker. Given that they sort of step in the role that, 
for example, a police officer on the street would step into in 
that situation, it would not be absolutely an idea.
    Mrs. Maloney. OK. Thank you.
    Would anyone else like to comment on any of the points?
    Admiral Crowley. Ma'am, I would just offer that for general 
safety and security issues, there is data captured certainly 
for people to look at, whether a different array of data would 
better meet needs of consumers, but with regard to safety 
records of both flag states, shipping groups, and shippers, 
there is information currently available.
    Mrs. Maloney. Where is it available?
    Admiral Crowley. That is on the Coast Guard's Web site for 
port state control exchange information.
    Mrs. Maloney. Thank you.
    Admiral Crowley. We can provide further information upon 
request.
    Mrs. Maloney. Thank you.
    Mr. Souder. Admiral Crowley, on the legal standpoint, and 
maybe Mr. Swecker, too, in response to Congresswoman Maloney's 
question, even though these are international vessels, couldn't 
you get this by the licensing to go to a U.S. port? I believe 
in your testimony a number of you referred to the nexus that we 
would have because the port in the United States would not be 
the way we would handle it?
    Admiral Crowley. We certainly have different mechanisms to 
look toward acquiring information beyond the U.S. flag vessel. 
They would include mechanisms for vessels calling on U.S. ports 
as well as working through the International Maritime 
Organization to get standards with the community. And we 
certainly could explore those kinds of avenues.
    Mr. Souder. Thank you.
    Mr. Duncan.
    Mr. Duncan. Well, thank you very much, Chairman Souder.
    For 7\1/2\ years prior to coming to Congress, I was a 
criminal court judge, and I tried the felony criminal cases, 
the most serious cases, the murders, rapes, armed robberies, 
burglaries, drug cases, etc. And I always tried to take into 
consideration the feelings of the families, and I think that 
they were pretty much satisfied with the sentences that I 
handed down because I have always believed that we should be 
very tough on serious crimes. And certainly if I had a family 
member who was killed or injured in some serious way on one of 
these cruise ships, I would certainly be concerned with it, and 
I certainly sympathize with those people. On the other hand, 
when I see the reports of 50 crimes and then Mr. Swecker's 
testimony said 305 in 5 years, which is 61 crimes a year, 50 or 
60 crimes, we always want to try and do better. That should be 
the goal of everybody in regard to everything. But I don't know 
if it is humanly possible to get much better than that 50 or 60 
crimes when you have 10 million passengers a year and they are 
not on there just for an hour or two. They are on there for a 
week or sometimes even more.
    So I am certainly not trying to minimize this, but I am 
trying to look at it in a realistic way. And what I am 
wondering about, Mr. Swecker, one thing I am wondering about, 
there are hundreds of thousands of studies each year by 
academic people, government people, and everybody else. Do you 
know of any study or report or anything that, or do you have 
any information that would lead you to believe that not many of 
these--that many of these crimes are not being reported to the 
FBI? There is apparently an agreement among the cruise lines 
that requires that they be reported. Now, I realize that could 
be being observed in the breach rather than in the practice. 
Can you tell us any more specifically about that?
    Mr. Swecker. I am not aware of any studies, but I am also 
not aware of any systemic problems with them not reporting 
crimes aboard their ships. I am not even aware of the media 
reports that were just mentioned by the subcommittee member.
    Mr. Duncan. All right. Admiral Justice or Admiral Crowley, 
I understand that the cruise lines have taken measures to 
screen all the bags and the passengers and so forth. Are there 
any ways that you feel that their security should be improved 
or any major or minor changes that you would suggest to improve 
or increase the security on these ships?
    Admiral Justice. I would like to say, sir, that it has been 
my recent experience in the last 3\1/2\ years down in Miami 
particularly where I have been stationed that there has been 
remarkable improvements and a coordinated effort to improve--
you mentioned the screening of all bags. The Coast Guard and 
the U.S. Government has promulgated security standards, and the 
cruise ship industry has stepped up and met those standards in 
a remarkably aggressive and thorough manner.
    Mr. Duncan. All right. Thank you.
    Admiral McPherson, a final question for you. I noticed in 
your testimony that you have talked about the law in regard to 
piracy, but I did not--and maybe it is someplace else in some 
of the other witnesses' testimonies, but how many acts of 
piracy are occurring each year on the high seas now? Do you 
know or have that information?
    Admiral McPherson. I do not have those statistics. We can 
get back to you on that, if you would like, sir.
    Mr. Duncan. All right. Thank you very much.
    Mr. Souder. Mr. Swecker, could I clarify this question? One 
of the most notable cases here, the Smith family, is a dispute 
whether it is an accident or potential crime. Do accidents get 
reported, and do you ever investigate that?
    Mr. Swecker. I am sorry. I did not----
    Mr. Souder. You stated in response to the question in your 
testimony that--and it was suggested here that the cruise ships 
themselves report crimes.
    Mr. Swecker. Correct.
    Mr. Souder. The question is: Do they report accidents? And 
what happens when a dispute occurs between an accident and a 
crime?
    Mr. Swecker. I am not aware that they report accidents nor 
any requirement to report accidents. But if there is any 
question at all, it would seem that they should report and let 
us take a look at it, at least open up a preliminary inquiry 
and see if a crime has been committed. In these circumstances, 
it was very appropriate for us to get an early look at it, and 
it should have been reported very quickly.
    Mr. Souder. And so I understand this, for the next panel, 
because in my questioning and Mr. Duncan's questioning, it is 
still a little unclear to me, is this real-time reporting or is 
this when they come into port or a quarterly report that they 
report crimes to the FBI?
    Mr. Swecker. I think it varies. I think when they believe a 
crime has been committed, I don't think they wait until they go 
into the port. I think there are communication systems that 
allow them to report that via the air waves.
    Mr. Souder. Mr. Ruppersberger.
    Mr. Ruppersberger. Well, first, there are a lot of issues 
that we can deal with here, but I think it is important to 
break it down to the real reason we are having this hearing. 
The scenario basically is that we have a cruise ship industry 
where we have over 10 million people, half of those people from 
North America, that are going for vacation. They are looking 
for a good time. They bring probably more jewelry than they 
might. They might bring tuxedos, whatever, because of the 
dining room, and they are looking to have a good time.
    Now, when you have a lot of people, you need systems and 
regulations, and I think the three major issues we need to look 
at now, first, the crimes on the cruise ships, on board, 
whether they be theft--and I assume there is a lot of theft. I 
am not sure whether it is being reported because it is an open 
season for people when they are out on board and whatever. And 
do we have a system there that we can identify where the theft 
is? Is there a ring there? Other issues, I have heard rape, 
whatever that is.
    The second thing, the pirates on the high seas, I think we 
know that. I don't think that we have as many areas, and I 
think our intelligence shows that we stay away from certain 
areas, like Somalia.
    And the third is weather, and I referred to that in my 
opening statement about are we forced because of an industry to 
take chances when it is important to make a deadline than to 
look at the safety.
    Now, you know, there are some--we had a hearing here, if 
you will recall, the baseball hearing on steroids, and at first 
we all thought, well, are we really publicizing something. But 
the more we got into it, the more that we saw children 
involved, and then some of the issues were people telling the 
truth. Baseball had to take a look at it, and we have talked 
about how this industry is a good industry, but maybe there is 
more to what we need to look at than what is there.
    I know of, and have heard of, complaints when there is a 
theft in your room that you get a letter back, sorry, we are 
sorry that we cannot take care of your situation, whatever. And 
what I am interested in more than anything is, first thing, do 
we have a system in place--we know about the jurisdictional 
issues when the FBI or Coast Guard have jurisdiction and what 
do we do on the high seas and then what do we do. But do we 
work with the industry itself? Do we have a system that deals 
with the issue of safety? Do we have people who are certified 
security officers on ship? Do we have a system, maybe within 
that security program, investigators that will look at a theft 
that might be on board or any other issue such as that?
    I am not sure which one could answer that question, but how 
closely do we monitor and work with the industry? Which is a 
large industry. And why I mentioned baseball, because, you 
know, the industry itself needs to step up if there are issues. 
If they are not reporting crimes, how do we evaluate it? And I 
am sure if they are not reporting crimes and they do not know, 
they do not want the public to know about it. So let's deal 
with that.
    And then there is a situation, I am sure Congressman Shays 
will deal with it, you know, which is extremely unfortunate, 
with George Smith and the way that occurred and the way his 
wife was treated and the fact that she was really told to go 
off-board and didn't really feel she had the security that was 
needed, and then who went to the crime scene, and not even 
knowing what the issues are there. I am sure that those 
issues--the Royal Caribbean would not want that to be out in 
public because if it is, then it will hurt their credibility. 
So I am asking them and other industries to work with us to 
find out what is there.
    Now, can you answer the question about the standards, 
reporting of crimes? Do we have people on board that are 
trained security officers? What do we have there when they go 
beyond our jurisdiction?
    Mr. Swecker. I can take a shot at it. There are protocols 
worked out with the cruise lines, but I am not aware of any 
formal training that we have provided. They may provide their 
own training. We have met with the cruise lines and established 
some basic protocols.
    Standards, I think you hit on a pretty good issue here as 
to setting some objective standards for them to meet when there 
is a suspected crime, reporting those crimes and getting at 
least some basic minimum standards set.
    Mr. Ruppersberger. Does anybody else have a comment there?
    Admiral Crowley. Sir, I would like to add that since the 
implementation of the ISPS code and the Maritime Transportation 
Security Act here in the United States, the Coast Guard has 
worked with the industry to develop a model security officer 
training program. I cannot speak to the details and the 
standards that are inherent in that, but we continue to work 
with the industry to develop a model program that they can then 
execute.
    Mr. Ruppersberger. But we do not know whether those 
programs exist, we do not have a way of monitoring, like we do 
in our airline industry, because I can guarantee you, 99 
percent of probably most--at least the people in the United 
States who go on these cruise ships, they are not thinking or 
are they aware of what happens when they get beyond the United 
States of America jurisdiction. And in a way, it is our 
obligation--and that is why we are having this hearing today--
to maybe go to the industry and to maybe make sure that those 
standards do exist and that we do have the proper people on 
board. And there is another issue we haven't talked about--and 
I do not want to get into it now because we could spend days on 
this--which is the actual issue of terrorism itself and the 
ability for, you know, members of al Qaeda or whatever to get 
on a cruise ship, to come into a port or whatever. I mean, you 
know, these are things that I think we better start buttoning 
it up, and I am asking you as a member of this committee to 
maybe review this with your different agencies, get with the 
industry before this thing gets out of hand, because we do not 
want to hurt the industry. There are a lot of people that enjoy 
this. But if the industry does not police itself and set the 
standards and we do not help them, then we are going to have to 
step in, and I don't think that is what the industry is going 
to want.
    Do you have any opinions on whether you can start working 
with them more in setting those standards and who else should 
be involved? Anybody?
    Admiral Crowley. Sir, the Coast Guard certainly continues 
its partnership with the industry to work toward the safest 
possible industry that is available.
    Mr. Ruppersberger. What I am asking, I really have a 
problem with a lot of these hearings, that we have these 
hearings and there is no follow-through. So what I am asking is 
that the Coast Guard, the FBI, and the Navy here--now, I am not 
sure whether the Navy is involved as much, but you probably are 
on the high seas--that we maybe pull together, because you are 
probably the best experts we have to deal with this, and to 
look at the industry and bring the industry in and talk about 
these kind of standards. You know, the Coast Guard has said to 
me that it is one of the safest modes of travel, but if you 
happen to be somebody that is lost, like the Smith family, that 
is not a very safe mode, and we need, I think, to really start 
looking at standards that will not hurt the industry but allow 
it to continue on, but to make sure we protect our Americans. 
Any commitment to get back on that?
    Mr. Swecker. Certainly we can get back to you on that. We 
have a perfect vehicle to do that with our maritime liaison 
officers, and they would be the points of contact to sit with 
the Coast Guard, sit with the Navy, and sit with the industry 
representatives, and work through some protocols and standards.
    Mr. Ruppersberger. You have 300--I think it is 300--major 
ships or, I guess--what do you call them--vessels--is it 300 
companies that are out there that do the majority of the 10, 
the 12 million? I mean, would you work through the 
International Council of Cruise Lines? I mean, where do we go 
here? I am trying to get specific. Where do you think we go?
    Mr. Swecker. Working with 300 different companies would be 
difficult. Working through the industry representatives through 
ICCL would probably be the best idea.
    Mr. Ruppersberger. I would suggest you find who the big 
players are, too, and try to address that. And then if you set 
standards, it can go from the largest players to the smallest.
    But, Mr. Chairman, I am sure you are going to ask for this 
to come back that we could have a report back on this. Thank 
you.
    Mr. Souder. Yes, we will.
    Chairman Shays.
    Mr. Shays. Thank you. I want to thank all of you for being 
here, and I am wrestling with myself as to where to begin 
because we are citing statistics that I think are meaningless 
because I do not trust the statistics. Whatever they are, I do 
not trust them. I do not feel we have all the statistics. I 
think we have some of the statistics. So maybe you could start 
by telling me, do you have all the statistics or do you just 
get some of the information from some of the cruise line 
industries, some of the cruise ships? Could we just start right 
down the line?
    Mr. Swecker. As far as crimes that have been reported, we 
work everything that has been reported to us as at least a PI.
    Mr. Shays. So, in other words, if they have not reported a 
crime, you do not have a statistic.
    Mr. Swecker. We do not know what they have not reported to 
us. There is no way of knowing.
    Mr. Shays. So the bottom line is, of the statistics you are 
given, you can then share those statistics. But how can you 
come to any conclusion that they mean anything?
    Mr. Swecker. You can't. I mean, a lot of crimes on the 
street do not get reported. We just have no way of quantifying 
what is not reported to us.
    Mr. Shays. But isn't there a difference, though, between 
what might happen on the street and what might happen on a 
cruise ship? Isn't a cruise ship--basically they are the judge 
and the jury in a sense? They have their own police, their own 
fire, and it is all--and nodding the head doesn't get recorded.
    Mr. Swecker. I think you are right.
    Mr. Shays. OK. If I could just go down the line, how 
comfortable are you with the statistics that are presented?
    Admiral Crowley. Mr. Chairman, I certainly would not claim 
to have accurate statistics for all the crimes that this 
subcommittee is concerned about today.
    Mr. Shays. On cruise ships.
    Admiral Crowley. On cruise ships. There certainly are good, 
accurate--relatively accurate safety statistics in certain 
areas that have been developed over years. What you are looking 
at today I couldn't stand on very long.
    With respect to what we could do, we certainly can continue 
to look at that and figure out what it is----
    Mr. Shays. We will come back to that. We will come back to 
that.
    Admiral McPherson.
    Admiral McPherson. Yes, sir, there is no reporting 
requirement to DOD by the cruise industry. In response to 
Representative Duncan's statement, we can get back on the 
number of piracy incidents that we have become aware of, but 
there is no requirement for reporting those to----
    Mr. Shays. I am going to put piracy aside for the time 
being, because I just have this feeling that we will probably 
have more accurate numbers on piracy than we would on whether 
or not someone is missing.
    Mr. Swecker, if someone is missing, is that a crime?
    Mr. Swecker. Not necessarily. I would say in the context of 
a cruise ship, it is certainly something that should be 
reported.
    Mr. Shays. But is it reported?
    Mr. Swecker. I do not know.
    Mr. Shays. I mean, you know it isn't, don't you?
    Mr. Swecker. I am sorry?
    Mr. Shays. You know it isn't reported.
    Mr. Swecker. All I know is what is reported to us. If we 
were aware of an instance where they did not report it, we 
would probably independently----
    Mr. Shays. But in your experience, are you aware that 
people have been missing on cruise ships and it was never even 
reported to the families that they were missing?
    Mr. Swecker. I am not personally aware of those situations. 
Nothing has been reported to me.
    Mr. Shays. So you have never heard of an instance where 
someone was missing that was not reported?
    Mr. Swecker. That was not part of the preparation that I 
did for this testimony.
    Mr. Shays. Well, one of the things that would be wonderful 
would be to have all of you read the statements of some of the 
family members. While you were giving your statements, which I 
really appreciate, I was just going through what some of the 
family members had said. And when you go through what the 
family members endured, you want to scream. At least I do. I 
mean, when you hear the statement, read the statement of 
Kendall Carver about Merrian Lynn Carver, she went on a cruise, 
the steward was concerned because she was not in her cabin by 
the second day and reported to his folks that he had to report 
to on the cruise ship. When the cruise ship docked, they took 
her possessions and sent them down to Miami and did not report 
anything. Did not report anything. The family is learning that 
their daughter is missing from her daughter. And then when they 
try to find out, well, where is she, they find that she went on 
a cruise. And then they continue to try to get more 
information. They have to hire an investigator to check this 
out. The investigator wants to talk to people on the cruise 
ship, finds that at first they were willing to talk, and then 
they were not willing to talk. Finally, he learns that the 
cruise ship was very concerned--at least people on the cruise 
ship after the second day. The family was never notified. They 
never notified her parents. They never notified her children. 
They never notified her former husband. They did not notify 
anybody. They did not even record that she was missing.
    So when I read that, and this is a reputable cruise line. 
When I read that, everything about statistics mean nothing to 
me. They are totally and completely meaningless to me.
    Let me just understand from each of you, what is the 
requirement of the cruise line industry to provide you accurate 
statistics? What is the requirement?
    Mr. Swecker. There are not any that I am aware of.
    Mr. Shays. Admiral.
    Admiral Justice. None, sir.
    Admiral McPherson. I am not aware of any requirements to 
report to DOD.
    Mr. Shays. So there is no requirement that they provide you 
statistics whatsoever. So can we agree that the statistics are 
really meaningless, at least at this point? I mean, would you 
agree, Mr. Swecker, that the statistics are meaningless if, in 
fact, you cannot be assured you have all the statistics?
    Mr. Swecker. I would say they are less meaningful.
    Mr. Shays. Well, tell me how they are meaningful.
    Mr. Swecker. We know what is reported----
    Mr. Shays. I do not know what ``less meaningful'' means.
    Mr. Swecker. Well, we have no way of knowing what is or is 
not reported to us, so there is no way of defining the universe 
of what is not reported.
    Mr. Shays. So can you tell me that the statistics are 
meaningful, then?
    Mr. Swecker. I am not going to defend the statistics. I 
cannot.
    Mr. Shays. Are the statistics meaningful?
    Mr. Swecker. I cannot defend them as meaningful----
    Mr. Shays. I do not know what ``defend them'' or not means. 
I need you to tell me--in other words, you have already 
testified that the industry does not have to report anything to 
you. No requirement, no legal requirement. The Admirals have 
said the same thing. They do not have to report it to the Coast 
Guard. They do not have to report it to the Navy. So there is 
no requirement that they be reported. And yet I have been 
listening to all these statistics. So should I have any comfort 
in those statistics, Mr. Swecker?
    Mr. Swecker. No.
    Mr. Shays. Admiral.
    Admiral Justice. No, sir.
    Admiral Crowley. No, sir.
    Mr. Shays. Admiral.
    Admiral McPherson. It doesn't seem so to me.
    Mr. Shays. OK. So what we have to do on this subcommittee 
is find a way to get accurate statistics. Why don't you each 
suggest to me how we would get accurate statistics, just to 
start?
    Mr. Swecker. A requirement that they--and define what 
crimes should be reported. For example, we have no statistics 
on theft, so we know that no theft has ever been reported, at 
least to the FBI. So we know all the crimes are not being 
reported. So I think a requirement that you report crimes 
either to the FBI or the Coast Guard, or both, would be a 
start.
    Mr. Shays. Admirals. Admiral Crowley.
    Admiral Crowley. Mr. Chairman, it is clear that we have to 
come to some agreement as to what the nature of reporting 
requirements should be, work with both the Congress and the 
industry and develop some standards that are helpful.
    Mr. Shays. See, we are not even--and I appreciate your 
responding to these questions, but we are not even into this 
issue yet of what, you know, regulations we are going to put or 
not put on the industry. We are just trying to understand what 
the problem is to know whether laws are required, regulations, 
just Government action with no need of regulation, or whether 
we are just going to say to the industry you have to do a 
better job and you have to do the following.
    What legal rights do Americans have, Mr. Swecker, when they 
are on board a cruise ship?
    Mr. Swecker. Well, they are afforded all the legal rights 
of any citizen in the United States.
    Mr. Shays. If they are on a cruise ship that is foreign-
flagged, they still have all the rights of a citizen?
    Mr. Swecker. By virtue of Title 18 in our extraterritorial 
jurisdictional statutes, yes. I mean, as far as our ability to 
investigate crimes against U.S. citizens--I don't know if they 
enjoy, I guess, all the rights of a U.S. citizen if they are on 
a foreign-flagged vessel, but they are going to receive the 
protection and the investigation by U.S. law enforcement.
    Mr. Shays. So if they get on a cruise ship in Italy or 
Greece, they can feel comfortable they have all the rights of a 
citizen, all the legal protections of a citizen of the United 
States?
    Mr. Swecker. Well, we go through all these different 
jurisdictional scenarios. What they can expect is that U.S. law 
enforcement will respond if we have a jurisdictional basis to 
do so.
    Mr. Shays. The ``if'' is the question. What does that 
``if'' mean?
    Mr. Swecker. We can only work what we have jurisdiction 
over. I mean, there are some scenarios where it is not clear, 
for example, if it is within somebody else's territorial waters 
or their seas.
    Mr. Shays. So if a crime is allegedly committed in the 
territorial waters of another country, then you do or do not 
have jurisdiction?
    Mr. Swecker. Then that is subject to international treaty, 
and that starts to get out of my area of expertise. But if 
there is any arguable basis for U.S. jurisdiction, we will 
respond and we will work through the host country.
    Mr. Shays. I have real confidence that the FBI, if they can 
find a way, will exercise their ability to involve themselves. 
I just want to know if you do it by just the acquiescence of 
the country in which the crime may have been committed or 
whether you can actually demand it by right. Maybe the Admirals 
can enlighten me.
    Admiral Crowley. Mr. Chairman, you raise the question of 
the further we get from a U.S.-flagged vessel calling upon a 
U.S. port to a foreign-flagged vessel calling upon a foreign 
port----
    Mr. Shays. OK, let's take----
    Admiral Crowley [continuing]. Never getting to the United 
States at all, and there is certainly going to be a difference 
in the ability of the United States to provide protections for 
the cruise line rider that is more distant to the United 
States. That doesn't mean they don't have rights as citizens 
and together we won't work toward resolving issues. But there 
are simply going to be differences in our ability to deal with 
the problem.
    Mr. Shays. Let me just isolate it first. Most cruise ships 
are not U.S. based, or are?
    Admiral Crowley. Most of them are not.
    Mr. Shays. U.S.-flagged, they are not.
    Admiral Crowley. Most of them are not U.S.-flagged.
    Mr. Shays. OK. Let's just take those that are U.S.-flagged. 
If a crime is committed in territorial waters of another 
country, given that it is a U.S.-flagged vessel, we have pretty 
certain rights?
    Admiral Crowley. We would have a good ability to exercise 
jurisdiction not only over the vessel, investigative with 
colleagues from the FBI, but response from the Coast Guard, and 
to establish requirements upon the shipper, the cruise line 
itself.
    Mr. Shays. If it was not a U.S.-flagged vessel, then?
    Admiral Crowley. If it was not a U.S.-flagged vessel, then 
while we could protect U.S. citizens' rights and investigative 
means as has been discussed, our ability to influence the 
standards on the cruise line are dependent upon two things: our 
work with the industry, which is rather robust and continuous, 
and our work within the International Maritime Organization, as 
we have done with respect to security code at large, and to try 
to extend the standards that the United States believes 
important as far as we can through world shipping. In an 
incredibly responsive way, IMO has continued to work with U.S. 
delegations and passed in very quick time the security facility 
and vessel code that we all know about following September 
11th.
    I do not want to paint a picture that we are helpless or 
that the picture is so bleak, but I think it is important to 
recognize that it is different when we are dealing with a 
foreign-flagged vessel, and most different with a foreign-
flagged vessel that has relatively no connection to the United 
States.
    Mr. Shays. Well, whether you want it to be bleak or not is 
not really the issue. The issue is you are just trying to be 
truthful about what rights we have and what rights we do not 
have and what rights citizens have and do not have.
    I notice Mr. Cummings is here. I would like to have a 
series of more questions, but I would be happy to yield back 
and then just come back.
    Mr. Souder. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Admiral Crowley, tell me something. You know, we have had 
all kinds of hearings in this subcommittee about all the things 
that the Coast Guard has to do with regard to homeland security 
and drug interdiction and, you know, doing the things that you 
do, guarding the coast and what have you. But I am just 
wondering, you know, where does this whole subject fall as far 
as priorities are concerned?
    Admiral Crowley. Well, sir, I think everywhere from the 
National Strategy down to the code that, and I speak loosely, 
but the code that every commanding officer adheres to, that the 
safety of life at sea is preeminent. So the safety and security 
of lives is always a preeminent concern.
    The Coast Guard has long worked with the maritime industry 
both on the commercial side and on the private vessel side, 
cruise lines as well as commercial carriers, to ensure the 
safest transportation system that we can to leverage U.S. 
standards as far into the world's shipping as we can. There is 
an end to what that might be, and that is what your question 
clearly goes to. And that is a different question, and there is 
no easy answer, no good answer for the victims of the crimes 
that call our attention today.
    Mr. Cummings. Do you believe that the cruise industry 
should bear more of the financial responsibility for security 
and safety on these cruise ships?
    Admiral Crowley. Sir, I believe that the cruise industry 
bears the significant share of the responsibility today.
    Mr. Cummings. I see you shaking your head, Admiral Justice.
    Admiral Justice. Yes, sir, I would like to chime in here. 
As we work not only in the regulatory and the preparation for 
safety and all the things that we do with the cruise ship 
industry before they sail, once the industry does sail, once 
the ships are out at sea, the Coast Guard is also there. We 
respond, particularly in the Caribbean, particularly throughout 
the Bahamas, to medical evacuation situations on cruise ships 
all the time, all year long, and we are ready to do that as 
well as if there is some sort of a man overboard situation, 
whatever it might be, which unfortunately happened again just a 
couple days ago, we are out there immediately upon 
notification, and we are flying and we are searching and we are 
responding in partnership with the cruise ship to try to remedy 
the situation.
    Mr. Cummings. You know, I was sitting here and listening to 
this thing about you all talk about reporting and statistics, 
and I am just wondering--you deal with this kind of thing every 
day, Mr. Swecker. What would be the ideal situation if you were 
sitting in our seats and there was something that, you know, 
you could do to make things better that are practical things so 
that when people get on a ship they could feel--you are never 
going to be completely secure, I don't care where you are, but 
have maximum--you know, as maximum as practical security as 
possible. What would you want to do? What would you do? Or 
anybody else.
    Mr. Swecker. Well, I would say that you would hope that the 
industry and push the industry to police itself and establish 
its own standards. We have talked about reporting. I think that 
is very critical to at least know that if a crime occurs that 
it is going to be duly reported and quickly reported. But as 
far as the standard, security standards, protocols and that 
sort of thing, you would hope and I would suggest pushing the 
industry to set their own standards.
    Mr. Cummings. And I am just curious, how would you suggest 
that we do that? If I am going to report something that--and it 
is so sad. It is so sad that so much gets down to dollars and 
cents these days, not necessarily safety. And if I have an 
industry where I am worried about the dollars and cents, hoping 
and wishing is not probably going to do it. I was just 
wondering, did you have anything that--I mean, you talk about 
trying to force them or push them to do it. Us saying please do 
this does not work. We could barely get trains. I sit on the 
Transportation Committee. Just to get trains to put certain 
safety glass in trains so that if there is an accident people 
can get out is a major, major problem. I mean, it is like going 
up against that wall there. And I was just wondering, how would 
you--what kind of incentive would you throw out there?
    I hate to put you in this position as a legislator, but you 
are the FBI, so I figure that you might be able to help us.
    Mr. Swecker. It is very difficult to step into the 
policymaking role that you are asking, but, you know, as we 
talked about, I am not aware of systemic problem because we do 
not know what we do not know. And I think before you step in 
and start regulating, you need to have a good understanding of 
what the standards are and what is not being done. Is it a 
systemic problem or is it an isolated set of circumstances in a 
few instances? I do not know that. So it is very difficult to 
step up and say, hey, we need to do this or this. I think at 
bare minimum, I think it is a good start to simply require that 
these crimes be reported. But if you are asking me for a 
standard security standard, I cannot give you that.
    Mr. Cummings. I got you. That is not what I was asking, but 
it is OK.
    What sanctions exist, if any, if a cruise line is 
determined to be negligent or responsible for a serious crime 
against one of its passengers?
    Mr. Swecker. What sanction?
    Mr. Cummings. Yes.
    Mr. Swecker. Well, there is a whole host of laws, both 
common law, depending on the district where you would find 
jurisdiction, and also some maritime laws that would govern 
that. They are also subject to the same laws of any citizen, 
misprision of a felony, not reporting a felony. There are laws 
on the books that can be applied if there is such gross 
negligence that it reaches into the criminal realm.
    Mr. Cummings. Now, with regard to the George Smith case, 
the Turkish Government initially handled it, and then the case 
was turned over to the FBI after, I think, 6 weeks or 7 weeks. 
Is that true?
    Mr. Swecker. I am not sure of the exact time period.
    Mr. Cummings. Well, you know it----
    Mr. Swecker. It was not right away.
    Mr. Cummings. It was not right away. When were you all made 
aware of that? Can you tell me that?
    Mr. Swecker. No, I do not have that information, but I can 
get back to you on it.
    Mr. Cummings. And----
    Mr. Swecker. I have also been asked by the U.S. Attorney 
not to discuss the facts of the case.
    Mr. Cummings. I understand. I am not trying to get that 
deep into it. I am just trying to figure out whether I found 
out about it before you did on CNN. And I am not trying to be 
smart. I mean, I heard about it from CNN, and I was just 
wondering--and what I am trying to get to is what kind of 
cooperation do we get from these governments? Because that 
sounds like something that is very important.
    Mr. Swecker. Well, I was going to say in that case it was 
very difficult to determine exactly when and where--what 
territorial--if any particular territorial waters were 
implicated and exactly where this happened. And that is one of 
the threshold questions in terms of who has jurisdiction. So 
there are some complexities there that get into the facts of 
the case.
    Mr. Cummings. And so then depending on where the ship was, 
you could have--I mean, it could be a nightmare trying to 
figure out who has jurisdiction. Am I right?
    Mr. Swecker. I would defer to legal counsel on that one. He 
is going to have a better understanding of that.
    Admiral Crowley. Sir, it could be difficult, but I think 
you touch upon an important point that we continue to make 
improvements on all the time, and that is working with the 
shipping authorities of different flag governments to try to 
improve our ability once we know about a case--you have pointed 
out a vulnerability to the process. But once we know about the 
case, to work with the shipping authorities of the different 
countries and acquire jurisdiction to facilitate, whether it be 
Legats or Coast Guard boarding teams, to preserve scenes and to 
continue the effort.
    In several of the cases that we have noted, we have been 
able to do that, but we have to know about the case before you 
can make the step to contact the shipping authority.
    Mr. Cummings. I would just ask this: Mr. Swecker said that 
it is kind of difficult, and I am not try to put words in your 
mouth. Correct me if I am wrong--to figure out whether we have 
a problem and the extent of the problem if we do not have the 
information. Am I right, Mr. Swecker? Is that what you 
basically said?
    Mr. Swecker. Yes.
    Mr. Cummings. Do you all consider this a problem? Do you 
think that is a problem? You know, we have had witnesses come 
before us, and we thought something was a problem and they did 
not.
    Mr. Swecker. It has not been brought to our attention as a 
systemic problem.
    Mr. Cummings. So you don't----
    Mr. Swecker. You know, I will not say we have studied it 
extensively either. I mean, this is one of many things that we 
do, and it has not been brought, at least at my level, as a 
systemic problem with the cruise industry.
    Mr. Cummings. Anybody else?
    [No response.]
    Mr. Shays. Would the gentleman yield?
    Mr. Cummings. Of course.
    Mr. Shays. Since this was the line of question that I was 
asking, I need you to elaborate on your answer, because it 
sounds like you acknowledged the statistics are meaningless 
because they are not complete and they are voluntary, and you 
all four said they were meaningless. And yet you are saying you 
did not think of it as a problem.
    So I need you to kind of sort that out for me, just so we 
have a record that we can act on.
    Mr. Swecker. There just is not enough information to draw a 
conclusion at this point. I mean, you are asking me to define 
what we do not know.
    Mr. Shays. Draw a conclusion about what?
    Mr. Swecker. You were addressing reporting, and I just--we 
don't know what we don't know. We don't know what hasn't been 
reported to us.
    Mr. Shays. OK. So you don't know whether you can make the 
affirmative or the negative. But I will get into this again 
because I want it clearly understood. I thought you all said 
that these statistics were meaningless because they weren't 
necessarily complete. And if you have a different answer to 
add, then I need to make sure I know.
    Now, what I also heard you saying to Mr. Cummings is that 
you had not thought about it in the past, and what that says to 
me is you have lots of issues on the table, and you have just 
accepted these statistics and acted on them as being valid, 
which says something else.
    I thank the gentleman, but I really need to nail this down 
before we adjourn this panel.
    Mr. Cummings. Yes, just as my last question, this is a 
followup on what Mr. Shays was saying. You know, the thing that 
I guess concerns me is that--one of the things that makes me so 
proud to be an American is that we take care of our people. 
And, I mean, you all do a great job. You have men and women out 
there that literally put their lives on the line. I have seen 
it, I have heard them. And I guess, you know, I look at some of 
the cases that happen, and it happens to one American who is 
missing or who has a major problem, I think a lot of the reason 
why other countries admire us is because we will go, we will do 
whatever is necessary to try to get to that one person, no 
matter where they are. I just want to make sure that we do 
everything that we can to prevent having to have to go after 
those persons as best we can. We are always going to have some 
type of problems, and we just need to figure out, again, what--
I think there is a problem, figure out how to get the 
information we need and then figure out how to use taxpayers' 
dollars most effectively and efficiently to continue to do what 
America is good at, and that is coming to the rescue of our 
people.
    You know, so perhaps this will in further questioning, you 
know, flesh it out a little bit, but I think that is the goal 
here.
    Thank you.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T7923.006

[GRAPHIC] [TIFF OMITTED] T7923.007

[GRAPHIC] [TIFF OMITTED] T7923.008

[GRAPHIC] [TIFF OMITTED] T7923.009

    Mr. Souder. Thank you. I have some additional questions.
    Would each of you report back to the subcommittee what type 
of statistics you have in your agency, how many times the Coast 
Guard has been involved not only on cruise ships but on piracy, 
if it is related to theft, rape, or murder, same thing in the 
Department of Defense, same thing in the FBI, so at least we 
have what universe of statistics we are dealing with.
    Second, just as a general statement that Mr. Cummings did, 
let me ask this question. It is a pretty easy one, Admiral 
Justice, but I want to give you the opportunity to say this on 
the record. Since we expect you to pick up every sailboat that 
tips over, we expect you to interdict all the drugs in the 
eastern Pacific and the Caribbean and everywhere else in the 
world, we expect you to guard every little thing that may be in 
every container coming in on every ship in the United States, 
and now we expect you to make sure everybody is safe on all the 
international seas, do you have enough money?
    Admiral Justice. Sir, as you know, we do the best we can 
with what we have, and, Mr. Cummings, you know, you have our 
continued commitment to keep doing that.
    Mr. Souder. Bottom line, and I will say this, we in 
Congress need to accelerate everything from Deepwater to others 
because we have put you in so many missions, and now the 
general public--I mean, we have been having these border 
meetings for about 2 months and trying to figure out how to 
deal with the U.S. border. And because you did a great job, and 
Admiral Allen down in Katrina, they wanted to put you in charge 
of the Southwest border. I know all the coasties really want to 
do landlocked Southwest border things, but we cannot continue 
to say the Coast Guard is going to do all this without giving 
the Coast Guard resources. And I wanted to make sure I put that 
into the record.
    Admiral Justice. Yes, sir.
    Mr. Souder. Mr. Cummings made a comment and the response 
was, Mr. Swecker, ``once we heard about the problem.'' You 
know, ``once we heard about the problem'' just does not cut it, 
because we have established here that there is no timely 
reporting. In other words, you cannot respond to a problem if 
you have not heard about it. You do not just look at TV and 
respond. But you have identified a real critical thing here 
because if it takes you 7 months to hear about it, what is a 
crime scene going to look like? I mean, this is like every case 
is a cold case.
    You also said in your testimony that there were not 
penalties other than the normal penalties. Let me ask a 
question: If there is a crime scene in a town in Indiana, or 
anywhere in the country--I happen to be from Indiana. But a 
Wal-Mart security guard alters the crime scene, what happens if 
private security changes a crime scene that could impact 
whether or not a case can be prosecuted? And what if it was 
deliberately altered, not necessarily to cover up the crime but 
they knew it was a crime scene, they knew it was a potential 
civil liberties violation of some individual, and they altered 
the crime scene?
    Mr. Swecker. A deliberate alteration of a crime scene would 
be a crime. If it was not just negligence but done with 
requisite intent----
    Mr. Souder. What about a potential----
    Mr. Swecker [continuing]. It would be----
    Mr. Souder. What about of a potential crime? In other 
words, there is a store, let's say, at the mall, somebody 
alleges they were raped in the parking lot, but we are not sure 
whether it was a rape or not, but somebody altered the crime 
scene from a private security force. Would they have penalties?
    Mr. Swecker. Then you get into nuances of intent. I hate to 
delve too deeply into that, but the answer is it is a potential 
crime, yes.
    Mr. Souder. Is it on a cruise ship?
    Mr. Swecker. If there is--yes. If there is a deliberate 
intent to tamper with a crime scene, yes. Then you get into 
legal issues----
    Mr. Souder. The reason I am trying to get into it, because 
deliberate intent here is really interesting, because at a 
mall, it may be that you do not want a car with a bunch of 
yellow tape over it saying, you know, rape victim there; you do 
not want to have a store sealed off because something happened 
in their store, because they would shut down during Christmas 
season. On a ship, the problem here is they want to use the 
berths and they do not want to sit in harbor waiting for the 
crime scene.
    So, if there is blood on the deck, that is not going to be 
real comfortable for the next people going, hey, how come there 
is blood all over this lifeboat and on the deck? So it is 
certainly deliberate. The question is, are you saying 
malicious?
    Mr. Swecker. We would investigate it as a crime. I don't 
know whether it would be convicted as a crime. We would have to 
hold up those elements of proof, whatever statute we are 
working with.
    Mr. Souder. OK. I appreciate that. That clarifies that for 
me.
    In this question of are the statistics valid, and you kind 
of suggested that--first off, you said overtly that we cannot 
have any confidence in the statistics because we only know what 
we know. At the same time you suggested it had not reached some 
kind of threshold level that you were real concerned about it.
    Let me ask another question. If I have a family member who 
is missing and I report that, that they are missing from a 
cruise ship, they went on a cruise and they are missing, does 
that get counted in the cruise ship data, or how does that get 
recorded? And does it depend who I report it to? If I report it 
to the local police, would the local police not necessarily 
even get it to the FBI unless it reaches a threshold? Could 
different cases be lodged in different city departments, State 
police, FBI? And do you mark it if it is a cruise ship?
    Mr. Swecker. It is possible. I think most local agencies 
would quickly refer it over to the FBI, you know, if it were 
reported directly to them.
    All I can tell you is whatever has been reported to us, we 
have opened up as an investigation.
    Mr. Souder. But you do not believe that a case--you do not 
know or--what I am trying to sort out is, does the FBI get 
cases outside of the cruise ship self-reporting that could be 
cruise ship-related? And how does that mesh? Or don't you have 
that statistic?
    Mr. Swecker. I don't know if we have had indirect reporting 
from other agencies that the cruise line did not report, but I 
certainly can get back to you on that.
    Mr. Souder. That would be helpful because that would be--
one of the questions is you presume if somebody was missing 
from a cruise ship that there would be another method they 
would report if the cruise ship didn't report it, and that 
would be an interesting gap to see as well.
    Mr. Shays.
    Mr. Shays [presiding]. Thank you.
    We will get on to the next panel in just a second. We are 
learning how to walk here on this case. We are looking at the 
cruise ship industry, and we may have a serious problem. We may 
not have the kind of problem that I think we have. But what I 
am getting from this first panel and from you, Mr. Swecker, is 
that given the statistics, you do not think there is anything 
too out of the ordinary. This is how we started out. You know, 
we have cities with crime that is worse and so on.
    In the course of your responding to questions--and you made 
it a point that you don't always have a crime told to you in an 
urban area, for instance. But you did, in the course of 
responding to some questions, acknowledge that all the 
statistics you get are voluntary and that you have no certainty 
whatsoever that you have all the statistics, all the facts. So 
in response to that, asking the question, can you have any 
comfort level that these statistics mean anything? I thought 
your answer was, no, I can't have a comfort level that these 
statistics mean anything. I may have asked the question 
differently. If you want to--that is where I am leaving--that 
is what I concluded from your response to me. If you want to 
give a different response, then--do you have confidence that 
these statistics are accurate and that you can draw any 
conclusions given that you have no comfort that you have all 
the facts and statistics?
    Mr. Swecker. If you are asking if I have a personal comfort 
level----
    Mr. Shays. Not a personal--no, you are not here for 
personal reasons. You are an FBI representative.
    Mr. Swecker. And I am also trained to operate on facts, and 
I don't have factual information to draw conclusions right now.
    Mr. Shays. No, no, that is not--do you--you don't have any 
factual information to draw a conclusion that the statistics 
are accurate, correct?
    Mr. Swecker. Correct.
    Mr. Shays. OK.
    Mr. Swecker. Nor inaccurate.
    Mr. Shays. Fine. Therefore, when you start out by saying 
the statistics are telling you that you don't have a problem, 
do you want to withdraw that? Because you basically cannot make 
that conclusion, correct?
    Mr. Swecker. All I said was I am not aware of a systemic 
problem with non-reporting. And I am not aware of a systemic 
problem with non-reporting. But, again, you know, you are 
asking me to draw a conclusion, and there is not enough 
information to draw that conclusion.
    Mr. Shays. Well, we are going to just start over again, and 
I do not have a time limit here, and we can go on for half an 
hour, we can go on for 2 minutes. And I know you want to be 
cooperative, and I do not want to beat a dead horse here. The 
bottom line is: Are these statistics reported to you 
voluntarily?
    Mr. Swecker. Yes.
    Mr. Shays. OK. Do you believe that the statistics from the 
industry represent every crime that has been committed? Do you 
believe that you get all the statistics from all the cruise 
lines?
    Mr. Swecker. I do not have that information. I do not have 
enough information to draw that belief one way or the other. 
But I----
    Mr. Shays. So the answer is----
    Mr. Swecker. All I know is what has been reported to us. If 
I had examples of non-reporting----
    Mr. Shays. Well, let's pursue it differently----
    Mr. Swecker [continuing]. I could draw a conclusion.
    Mr. Shays. Is the cruise industry a disinterested party 
here?
    Mr. Swecker. No.
    Mr. Shays. Does the cruise industry have any penalty if 
they do not provide you accurate statistics?
    Mr. Swecker. None that I am aware of.
    Mr. Shays. OK. They cannot go to jail. It is all voluntary. 
And so basically you are depending on the good will of the 
cruise industry to provide you accurate information. Is that 
correct?
    Mr. Swecker. That is correct.
    Mr. Shays. Is it possible that some of the information they 
would provide you would embarrass them?
    Mr. Swecker. It is possible.
    Mr. Shays. Is it possible that some of the information they 
could provide you might hurt their business?
    Mr. Swecker. It is possible.
    Mr. Shays. OK. So, so far, we are in agreement.
    Can you state with any comfort level that given the 
statistics that you are provided, you can say that we do not 
have a problem in the cruise industry?
    Mr. Swecker. No, I cannot.
    Mr. Shays. OK. We will leave it at that. We will leave it 
at that. I think that is fair. So you are not coming here 
saying we have a problem or we do not have a problem.
    Mr. Swecker. Correct. If I had more information for you, I 
would be perfectly willing to draw a conclusion on that. But 
I----
    Mr. Shays. OK. Rear Admiral Justice, I am going to ask you 
the same basic questions, and without me asking it, tell me 
what the statistics tell you and tell me how dependable you 
believe the statistics are. By the way, I thought this was like 
the first question I would ask in the course of 20 others, and 
that is why I am not eager to keep spending time on this. But 
what comfort level do you have with the statistics that would 
suggest that we do not have a problem with the cruise industry? 
Can you draw a conclusion one way or the other?
    Admiral Justice. I cannot.
    Admiral Crowley. Mr. Chairman, if I could have your 
indulgence and maybe answer the question a little differently--
--
    Mr. Shays. Fair enough.
    Admiral Crowley [continuing]. And see if it is responsive 
to you. Over time, the Coast Guard has found a fair degree of 
self-reporting from the cruise industry on safety matters such 
as fire prevention from which additional fire protection 
regulations were implemented within the industry, first within 
U.S. carriers and then, through IMO, overseas.
    On the other hand, through largely a wide body of anecdotal 
information, investigations and efforts in the area of 
environmental pollution were undertaken by the Coast Guard in a 
different fashion.
    So we have experience, is what I would offer you, in 
dealing with both the industry dealing on its own behalf as 
safety as an interest of theirs and self-reporting and making 
adjustments to regulations, as well as understanding, where a 
wide body of anecdotal information does exist, that law 
enforcement and investigative efforts have to be undertaken and 
pursued without the request of the industry. And I think there 
is a track record, for example, in the environmental 
enforcement area of holding individuals as well as corporate 
entities criminally liable where it is applicable.
    So that is approaching your question a little differently. 
I don't know if that is helpful to you or not.
    Mr. Shays. We will let it stand. Thank you, Admiral.
    Admiral McPherson. Mr. Chairman, the Department of Defense 
has no regulatory or law enforcement relationship with the 
cruise industry, so I am out of my lane in response to that. 
But as a taxpayer, I would agree with you.
    Mr. Shays. Thank you, sir.
    I thought that if a crime had been committed but stating 
that someone is simply missing, it clearly reduces the level of 
oversight on the industry. Would you agree, Mr. Swecker? I 
mean, there is a big difference between someone being missing 
and a crime being committed.
    Mr. Swecker. There is a difference, yes. People go missing 
every day within the United States, and it does not necessarily 
translate into a crime. But it is in a different context on a 
cruise ship because there is nowhere to go, so, you know, to me 
a crime is implicated or some other event is implicated, a 
serious accident.
    Mr. Shays. Well, we have three choices basically, it seems 
to me: a murder was committed, people were fooling around and 
an accident took place, someone was drunk and did something 
unwise and fell overboard, or they committed suicide. I have 
four choices. Are there others that I should add to that?
    Mr. Swecker. No. I think you have covered it.
    Mr. Shays. But what is stunning for me is in speaking to 
Mr. Carver and learning about Merrian Lynn Carver, in that 
instance the industry did not even want to say she was missing. 
That is what is so astonishing. I mean, missing is one thing. 
They are not saying she was killed. And so I am just struck by 
a feeling of uneasiness about the industry. That is, Mr. 
Swecker, why you in your professional ability are not going to 
make a conclusion one way or the other, I have suspicions. My 
suspicions are that if they would do that to Merrian Lynn 
Carver and have her young daughter calling her grandparents and 
saying, ``Mommy is not home, I cannot find her,'' and then in 
the course of having to get information, spend $75,000 to get 
this information, to learn eventually, after being able to 
speak to the steward, who they did not want them to speak with, 
that he was concerned from day one. And from day one, they just 
took her stuff and got rid of it, case closed. So they have a 
little bit of a problem with me.
    I am just sharing with you as to why we are intrigued and 
interested and determined to pursue this. When you read the 
statement from Jennifer Hagel Smith, you want to scream, you 
want to cry, you want to say, ``I don't believe it.'' She was 
basically told that her husband was presumed to have gone 
overboard in a public place in front of other people who were 
laughing and smiling and having a great time on a cruise ship. 
She states there was no compassion, sympathy, or sensitivity 
shown by the cruise line. She asked if she could contact 
George's parents immediately. She says, ``The cruise line told 
me not to call anyone; however, I couldn't bear the weight of 
this nightmare alone.'' Hello.
    ``Finally, the cruise line permitted me to call my family. 
My mother answered the phone''--and she describes that.
    ``The Captain of the cruise ship told me that I had to 
leave the ship with the Turkish police.'' The captain promised 
to her dad that ``I would leave the ship for only a short 
period of time'' and that there would be two people--``He 
promised my Dad that two ship security officers would accompany 
me at all times. He ensured us that the officers would promptly 
return me to the ship.''
    She states, ``I was interrogated by a Turkish police 
officer in an office at the port. I was then driven into the 
city to a Turkish police station where I was mocked and taunted 
as I sat crying and bewildered. Where were the two cruise line 
security officers?'' That is what she asked. ``I was then taken 
against my will, further from the cruise ship, to a hospital. A 
man . . . I could not understand lifted up my shirt and looked 
down my shorts without taking me to a private examining room.''
    That last little part, ``without taking me to a private 
examining room,'' is kind of meaningless. Why he was doing what 
he was doing is unbelievable.
    ``The ship sailed without me that evening. I was left in 
Turkey with no money, no plane ticket, no food, nothing . . . 
The cruise line did not offer me help with a flight, hotel 
arrangements, or anything. I could not speak the native 
language and I felt abandoned.''
    ``I had to borrow money to pay for a hotel.''
    So that is the statement of someone who could have said 
this publicly. It is written. It is part of the document. And 
so I am wrestling with how we can trust any statistic from any 
cruise line that would do what they did to a young bride.
    So help me, before we get on--and, by the way, Mr. 
Cummings, would you like the floor for a bit? Let me recognize 
you, Mr. Cummings. I am sorry.
    Mr. Cummings. I just want to pick up on this. You know, I 
read the statement that you just went over, and then I read the 
statement of George Smith and Maureen Smith, the parents, and I 
do not want to just zero in on this case because I know there 
are a lot of cases. But, you know, one of us asked about the 
crime scene situation, and in the statement of Mr. and Mrs. 
Smith, they talk about the security ``failed to enter George's 
cabin even after several complaints of a loud fight taking 
place inside. If they had entered his stateroom, our son and 
brother's life may have been saved.'' And this is what was very 
interesting. ``The cruise ship was not locked down in Kusadasi, 
Turkey, the next port of call after George's disappearance. 
Passengers and crew members were free to disembark as usual, 
potentially taking crucial evidence off of the cruise ship with 
them.''
    ``The Turkish authorities were rushed off the boat prior to 
completing a full investigation so that the cruise ship could 
make the next port of call on schedule.''
    This goes back to what I was saying a little earlier. You 
know, we have a thing in this country about taking care of our 
people. And then just adding on to what you just said about the 
way this bride was treated, I mean, when I began to read it, I 
felt chills to think that 1 day you have somebody being married 
and going off happily to enjoy their life and looking forward 
to children, and the next thing you know somebody comes to them 
and tells them your mate is no longer here.
    I think there is a problem. I think there is a major 
problem. And I think there is some kind of way we have to do 
better. Over and over again we see these wonderful commercials 
of cruises, talking about the good life, how happy everybody is 
going to be, and then we hear about these tragic situations. 
And so, you know, we have just got to figure out a way. This is 
not the American way. We can do better. And I am not trying to 
take anything away from you all, but some kind of way we have 
to figure out how we can use diplomacy, the tools that we may 
have at our disposal, because there is one thing that we have 
to keep in mind, that there is one thing that drives the 
industry, and that is money. And if people begin to 
understand--I mean, I tell you, if what you talked about a 
moment ago, Mr. Shays, were out there truly in the universe, I 
don't know whether that cruise line would get any business.
    I think we have just got to look at a lot of options, but 
we cannot allow this to continue the way it is, because there 
is going to be another incident, whether we like it or not. So 
as I was saying a little bit earlier, I think we just have to 
find a way.
    I don't have anything else.
    Mr. Shays. Thank you.
    Mr. Souder, do you want to make a point? I am going to have 
a few more questions. Should I go to you and then come to me?
    Mr. Souder. That is all right.
    Mr. Shays. We are going to conclude here. I need you all to 
help us out. I need you to tell us how we get a handle on this 
issue, and I am certain that all of you have thought about it. 
Where should we move this hearing to so we are not just voicing 
concern, but making a difference? For instance, should we, and 
can we legally do this to a foreign flag owner? Can we require 
all statistics be provided and define what those statistics 
are, what we want. Can we require that there be uniformity in 
terms of when someone is missing, that they be treated as a 
potential crime until determined otherwise? I mean, in other 
words, what should we be doing to make this work? I am not 
quite sure of the role of the Navy here. I just know my brother 
was a pilot in the Navy, and I had a brother who was an officer 
in the Coast Guard, so I love what you all do. Admiral, why 
don't I start out with you? Tell me specifically what--I know 
in your statement you did--but specifically what the role of 
the Navy is in all the issues that we are discussing today?
    Admiral McPherson. Our role is one on the high seas, 
primarily in the area of piracy.
    Mr. Shays. So primarily in piracy, which we are not 
spending time, I am not spending time focused on. But I would 
like to put a statement in the record from the Strategic 
Forecast. It is a Daily Terrorism Brief dated December 13th. I 
am going to submit this for the record, but they basically say 
cruise ships also fit into the targeting criteria of many 
militant groups. For certain militant Islamic groups a ship 
full of Israeli tourists would be especially enticing.
    I want to say that this is a huge issue, and I acknowledge 
it. I know the cruise industry is very concerned about this and 
doing what it can to protect itself. Because of the limited 
time, I am focused more on the issue of missing persons and 
crime. Thank you.
    Admiral McPherson. Yes, sir.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T7923.105
    
    [GRAPHIC] [TIFF OMITTED] T7923.106
    
    Mr. Shays. But when they are in the high seas, that is your 
territory, right, in that area there?
    Admiral McPherson. Yes, sir, and we are active in that 
area, yes, sir.
    Mr. Shays. Very active. We may just have a hearing, 
frankly, just on the issue of the role that you play and the 
concern we have about terrorism on cruise ships, and then you 
will be feeling a lot more in familiar territory. So thank you.
    Coast Guard and FBI, maybe tell me how you think we could 
make a constructive effort here? Let me just ask all of you, do 
you believe that we have a problem--you don't have to define 
the problem--that this is an issue that we need to look at, Mr. 
Swecker?
    Mr. Swecker. Certainly it is an issue.
    Mr. Shays. That we need to look at?
    Mr. Swecker. Yes.
    Mr. Shays. Admiral Justice.
    Admiral Justice. Yes, sir.
    Mr. Shays. Admiral Crowley.
    Admiral Crowley. Yes, sir, absolutely.
    Mr. Shays. So we are in agreement with what we need to look 
at. Just help us out a little bit as to the directions you 
would suggest we go. Maybe, Mr. Swecker, you could start.
    Mr. Swecker. Sir, I think you are onto a very significant 
issue when it comes to reporting. I think you have a very valid 
concern there. We share that concern, and my previous answers 
were just centered around just not having enough information--
--
    Mr. Shays. I think I understood you, and I am comfortable 
with your position.
    Mr. Swecker. All right. We see our role as to promptly 
investigate these crimes when they are reported, and we 
certainly have an interest in making sure that the crimes or 
potential crimes are reported.
    Mr. Shays. Thank you.
    Admiral Justice.
    Admiral Justice. Seeing as we are part of the regulatory 
prevention side, and we are also, of course, part of the 
response to challenges, and I would just say we are committed 
to continuing to look at this.
    Mr. Shays. Thank you, sir.
    Admiral Crowley, to add? Any suggestions on how we should 
be looking at it?
    Admiral Crowley. Mr. Chairman, Chairman Souder asked us to 
provide statistics to the subcommittee, and I think that is a 
good vehicle to offer further thoughts and deliberate 
suggestions to the committee as to a way ahead in the way of 
working with you to find a good direction.
    Mr. Shays. I am just going to make an observation, and then 
give the rest of the time to Mr. Souder. You know, there is 
this intriguing commercial that says what happens in Las Vegas 
stays in Las Vegas. I am getting the feeling that as we talk 
about the cruise line industry, it is a fun place for people to 
get away and sometimes just do things they might not do at 
home. It is also a floating casino, a huge amount of dollars. I 
am just wondering if there is not a way that they have less 
dollars on board ship, that people not carry a lot of extra 
dollars, that there be some way that they can do all that they 
want to do without having cash.
    The other area that I would have responded to this question 
is, that I asked you, is I am struck by the fact that--I am 
assuming that most, based on what I have read, that most of the 
employees are not necessarily American citizens, in fact, 
aren't, that they are looking for less expensive labor. My 
sense is they don't go by OSHA laws. They work real hard on 
board these ships, and it is pretty intense at times. But I am 
just not quite comfortable with the vetting process, and we are 
going to ask the industry how they vet individuals.
    I am just struck with the fact that when Jennifer was 
dropped off, that ship went on sailing with potential murderers 
on board, and they still may be on board today, and that sends 
a shiver down my back.
    Mr. Souder.
    Mr. Souder. Thank you. I wanted to make just a couple of 
comments. We focused mostly on the cruise ships, but there are 
national security concerns here, and maritime security in 
general, and Chairman Shays and I actually did a joint hearing 
in New York Harbor, what, 2 years ago, looking at 
jurisdictional questions there and who was in charge of what, 
and whether we were looking at control ships, and he is 
specifically focused in this. I found it ironic. I went with 
Chairman Curt Weldon over to Tripoli at a conference on 
maritime security that was being held in Tripoli, the old 
pirate coast where we used to face all these type of things, 
and hopefully they have switched sides at this point, but it is 
interesting to watch this growing concern around the world 
about kind of quasi states. Like we see in narcotics and 
terrorism, these terrorists work in their whole network, the 
Nigerian networks around the world in diamonds and narcotics, 
and worrying about the high seas and whether they are going to 
be safe.
    I also wanted to thank the Coast Guard again. I got to go 
with what we used to call the Sea Marshals, which name, by the 
way, I liked better, in that you board these cruise ships as 
they come into these high-risk harbors because these are not 
only cities, but potential bombs coming in. If control were 
seized, or if the crews in fact aren't checked, or if there are 
people who can get on and off, and the missing people question 
looms large in these ships as to the security if they hit 
particularly LA/Long Beach, where it would be a disaster with 
those ships coming in.
    But also, the reason I specifically asked to close is we 
have over 20,000 people we know annually or more die a year 
because of illegal narcotics, and Mr. Cummings and I have 
worked on this issue a lot. I want to thank every FBI agent on 
the street, all the members of the Coast Guard who do this, the 
men and women in our armed forces in Afghanistan and Colombia 
and on the high seas who work with drug interdiction, but in 
particular, this morning the U.S. Navy lost a helicopter, and 
our prayers go with the families and the people who are doing 
the searching to see if there are any survivors. But every 
person out there has been working to save lives on our streets, 
and in the Eastern Pacific over 70 percent of the narcotics 
coming into the United States come from that zone. I know it is 
a terrible tragedy to those individuals, but they are out there 
helping protect the rest of us, and we thank you, not only in 
Iraq and Afghanistan and around the world, but also in the war 
on illegal narcotics.
    Mr. Shays. I would like to add my voice to what Mr. Souder 
said. We both, in the positions we are in, travel a great deal 
overseas where we see our men and women serving our country, 
whether it is the State Department, whether it is in Coast 
Guard, the Army, the Marines, the Navy, the FBI is overseas in 
all our embassies. I am frankly in awe of the dedication and 
the competence of the men and women who serve our country. And 
so we thank them and we thank all of you, all four of our 
witnesses. You have been excellent witnesses and we thank you 
for your service to our great country. Thank you.
    We are going to get to our next panel. Thank you for your 
patience. Our next panel is Mr. Michael Crye, president, 
International Council of Cruise Lines; Mr. Greg Purdy, director 
of security, Royal Caribbean Cruise Lines; and Mr. Charlie 
Mandigo, Holland America Lines, Inc. We appreciate them for 
being here.
    If you would remain standing, we will swear you in and then 
hear your testimony.
    [Witnesses sworn.]
    Mr. Shays. Our witnesses have responded in the affirmative.
    Let me just say to all three of you, we thank you for your 
cooperation with this subcommittee. We thank you for being 
here. I have met with one or two of you, and I appreciate the 
interaction we had. What I would request is that we have a 
candid conversation. Obviously, there are particular cases 
which you are not going to want to go into in any detail or 
much detail, but I have a feeling this will not be the last 
time you appear before us, and we would like to start off just 
being as candid with each other as possible, and finding a way 
to deal with whatever problems we perceive and you all 
acknowledge that we can do, and do it together, rather than on 
opposite ends.
    Mr. Crye, why don't we start with you? We have 5 minutes, 
but we will roll over it so you can keep going if you want to 
make sure that you have something on the record. Obviously, 
your statements are a part of the record, but we want to make 
sure that you feel that you are able to say whatever you need 
to say.

STATEMENTS OF MICHAEL J. CRYE, PRESIDENT, INTERNATIONAL COUNCIL 
   OF CRUISE LINES; GREGORY M. PURDY, DIRECTOR OF SECURITY, 
SAFETY, SECURITY AND ENVIRONMENT, ROYAL CARIBBEAN CRUISES LTD.; 
   AND CHARLES E. MANDIGO, DIRECTOR, FLEET SECURITY, HOLLAND 
                       AMERICA LINE, INC.

                  STATEMENT OF MICHAEL J. CRYE

    Mr. Crye. Good afternoon, Mr. Chairmen and members of the 
subcommittee. My name is Michael Crye. I'm the president of the 
International Council of Cruise Lines. Thank you for the 
opportunity to present testimony on behalf of the cruise 
industry. I have provided a written statement to the 
subcommittee that I would ask be entered into the record. Since 
you have already done so, thank you, sir.
    In my testimony today, I will explain our security 
practices and jurisdictional protocols as I understand them, 
and how many people have cruised safely over the past few 
years. However, there have been a few passengers that have 
regrettably had other experiences. My testimony cannot lessen 
their pain. No matter how rare the incidents are that we talk 
of today, it doesn't make them any less relevant or serious. We 
recognize that and send our sympathies and condolences to those 
passengers and their families.
    The ICCL is a cruise industry trade association 
representing 15 leading cruise companies, and approximately 100 
companies providing goods and services to the member lines. Our 
members carry approximately 90 percent of the passengers in the 
North American vacation market. The mission of the ICCL is to 
participate in the regulatory and policy development process 
and promote all measures that foster a safe, secure and healthy 
cruise ship environment. ICCL is the industry representative to 
the International Maritime Organization and the International 
Labor Organization. Our vessels operate around the globe at 
approximately 800 ports worldwide.
    Over the past 20 years the industry has grown at a rate of 
approximately 8 percent per year with outstanding guest 
approval ratings. The industry also has an enviable record when 
it comes to safety and security. In 1995 the U.S. Coast Guard 
published the Report of the Cruise Ship Safety Review Task 
Force, and issued the following opinion: ``Passenger vessels 
operating from U.S. ports are among the safest modes of 
transportation available.'' I know of no reason for this 
opinion to have changed in the past 10 years.
    I also believe it is equally true for our member vessels 
operating to and from foreign ports.
    For many years the cruise lines have had on board security 
plans and procedures in place. These procedures include x-
raying or examining every person, piece of luggage, and all 
supplies loaded onto the vessels. All passengers are screened 
prior to boarding and properly identified. Each crew member 
holds a U.S. seafarer's visa, and has undergone a U.S. State 
Department background check. In addition, the ICCL Security 
Committee, comprised of the security directors of all of our 
member lines, meets every 60 days to discuss security and meet 
with law enforcement and intelligence agencies here in the 
United States. These meetings have been going on for the past 
decade.
    In the aftermath of September 11th, Congress passed 
landmark legislation, the Maritime Transportation Security Act, 
and concurrently, a new international agreement called the 
International Ship and Port Facility Security Code was 
finalized. These regulations became effective throughout the 
world on July 1, 2004. In developing these legal regimes, 
cruise ship security plans and practices were utilized as the 
blueprint of those that are applicable today throughout 
maritime industry.
    All ICCL cruise lines maintain strict security protocols 
and compliance with these United States and international 
mandates. Each ship has a designated security officer and a 
team of security personnel. Security personnel typically have a 
military or law enforcement background, and are trained 
specifically in respect to maritime security as well as the 
basic principles of crime scene prevention--preservation.
    Extensive security plans were in effect and approved by the 
U.S. Coast Guard from 1996 through 2004. These plans were 
updated in 2004 in accordance with ISPS Code requirements. 
These plans enable the ship to increase its security measures 
at a moment's notice. Each and every crew member on board and 
in the management chain knows what his or her responsibilities 
are, and has the training to accomplish these assignments. 
These are the goals of any effective security plan, and we have 
mature programs in this regard.
    There has been some debate over international maritime law 
and various jurisdictional issues with respect to providing 
protection for U.S. citizens. Ships are mobile, and they cross 
international boundaries. Therefore, a variety of governmental 
entities exercise law enforcement authority over each ship 
based upon where it is located. It becomes a matter of 
diplomatic negotiation as to which country takes the lead in 
applying its laws and which country follows.
    Congress has recognized these well-established principles, 
and has passed several laws that reinforce the notion that the 
United States may enforce its laws on board ships wherever they 
operate in the world when U.S. citizens or U.S. interests are 
involved.
    18 U.S.C., the Special Maritime and Territorial 
Jurisdiction of the United States, has already been discussed, 
and the Coast Guard's broad authority under 14 U.S.C. 89. The 
United States can and does assert jurisdiction based upon the 
residence and location of the victim or perpetrator, the site 
of the incident, the nature of the act in question, our own 
national interest in the matter, regardless of any other 
factors such as the ship's registration or itinerary.
    Any alleged criminal acts occurring on the high seas 
involving U.S. citizens are reported to the appropriate law 
enforcement agencies, which may include the FBI. Other 
incidents affecting security are reported to the flag state, in 
addition to any reporting requirements applicable in the United 
States.
    In 1999 our membership publicly adopted a policy of zero 
tolerance for crime, that requires allegations of on board 
crime be reported to the appropriate law enforcement 
authorities, which for vessels calling on U.S. ports or crime 
involving U.S. citizens would appropriately include the FBI.
    To summarize, the cruise industry is one of the most highly 
regulated industries in the world today. U.S. law protects 
American passengers on board cruise ships. The U.S. Coast Guard 
has jurisdiction over all ships entering U.S. ports, regardless 
of flag. The FBI, by virtue of Federal statutes and 
longstanding legal precedent, has jurisdiction to investigate 
allegation of serious crimes on board ships. This power 
specifically extends to incidents in international waters 
involving Americans.
    Regarding piracy. A cruise ship is comparable to a secure 
building with a 24-hour security guard. Since vessels operate 
in a controlled environment, access to the ship can be strictly 
enforced. Available information indicates that crime on board 
ships is extremely low compared to similar incidents reported 
ashore, undoubtedly, due to the nature of a cruise environment 
where passengers and crew are screened and access is strictly 
limited. The recent attack on the Seabourn Spirit is the first 
known attempt of piracy against a cruise vessel in the past 20 
years, despite there being over 3,900 incidents against 
commercial shipping in general throughout the world this year.
    In the case of a piracy incident, cruise ships are fitted 
with ship security alert systems to immediately notify a 
competent authority of the attack. The security teams are on 
board, are well trained in methods to prevent unauthorized 
access to the vessel at sea or in port.
    To conclude, cruising continues to be one of the safest 
modes of transportation available today. Our highest priority 
is the safety and security of our passengers, crew and vessels, 
and our safety record is a testament. Over 90 million 
passengers have safely sailed on cruise ships over the past 20 
years. While incidents are rare, we are not dismissive, nor do 
we shirk our responsibility as an industry to accomplish and 
address such matters--to acknowledge and address such matters.
    For those individuals, who are missing loved ones, the ICCL 
and our membership, extend our deepest sympathies. While it is 
impossible for an outsider to feel their pain, what we can do 
as an industry is to do our best to minimize the chances of a 
crime of any sort on our ships, and if that happens, to do our 
best to ensure those crimes are properly investigated and 
prosecuted.
    Thank you very much, chairman.
    [The prepared statement of Mr. Crye follows:]

    [GRAPHIC] [TIFF OMITTED] T7923.107
    
    [GRAPHIC] [TIFF OMITTED] T7923.108
    
    [GRAPHIC] [TIFF OMITTED] T7923.109
    
    [GRAPHIC] [TIFF OMITTED] T7923.110
    
    [GRAPHIC] [TIFF OMITTED] T7923.111
    
    [GRAPHIC] [TIFF OMITTED] T7923.112
    
    [GRAPHIC] [TIFF OMITTED] T7923.113
    
    [GRAPHIC] [TIFF OMITTED] T7923.114
    
    [GRAPHIC] [TIFF OMITTED] T7923.115
    
    [GRAPHIC] [TIFF OMITTED] T7923.116
    
    [GRAPHIC] [TIFF OMITTED] T7923.117
    
    [GRAPHIC] [TIFF OMITTED] T7923.118
    
    [GRAPHIC] [TIFF OMITTED] T7923.119
    
    [GRAPHIC] [TIFF OMITTED] T7923.120
    
    [GRAPHIC] [TIFF OMITTED] T7923.121
    
    Mr. Shays. Thank you, Mr. Crye.
    Mr. Purdy.

                 STATEMENT OF GREGORY M. PURDY

    Mr. Purdy. Chairman Shays, Chairman Souder, Congressman 
Cummings, my name is Greg Purdy. I am the director of safety, 
security and environment for Royal Caribbean Cruises, Limited.
    I am a graduate of the U.S. Coast Guard Academy and served 
in the U.S. Coast Guard for 16 years in a variety of positions, 
one of which was a commanding officer of a cutter. My 
experience includes law enforcement activities, narcotics and 
migrant interdiction and security matters both within the 
United States and internationally. I have been with Royal 
Caribbean almost 5 years, the majority of that time in my 
current position.
    The highest priority of our company is to ensure the safety 
and security of all our guests and crew members. We care about 
everyone on our ships, and we are truly concerned about their 
well-being. We do this because it's the right thing to do, and 
because it's just good business.
    As you know, crime can touch any of us in virtually any 
settings. This is one of the sad realities of our society 
today. In terms of our ships, one crime is one too many. It is 
impossible to be immune to crime. However, we work diligently 
to prevent it, and we're committed to the safety and security 
of everyone on board our ships.
    Since the founding of our company some 35 years ago, we've 
maintained a safety and security focused culture. This includes 
close working relationships with law enforcement agencies in 
the United States and throughout the world, extensive security 
policies and procedures, a significant security staff and 
infrastructure, and the utilization of state-of-the-art 
security technology. Our company works regularly and closely 
with the Department of Homeland Security, the Department of 
State, the U.S. Coast Guard, the Federal Bureau of 
Investigation, U.S. Customs and Border Protection, Immigration 
and Customs Enforcement, the Drug Enforcement Administration, 
as well as Interpol and various foreign authorities.
    Likewise, Royal Caribbean actively participates in an 
industry-based security committee, which is part of the 
International Council of Cruise Lines. To facilitate these 
activities involving various Federal law enforcement agencies, 
members of our own staff have U.S. security clearances and 
secure methods of communications provided by the Federal 
Government. We work with these agencies as well as with private 
security consultants to identify and mitigate security risks 
wherever we operate.
    Regarding our ships, our security measures include the 
screening of all luggage, carry-ons, provisions. This screening 
is conducted with x-ray machines, metal detectors, hand 
searches, sniffer dogs and other methods. Every one of our 
ships has a chief security officer who is a trained military 
veteran or a career security specialist. Their sole 
responsibility is to ensure the safety of our guests and crew. 
These security officers oversee teams of trained security staff 
who are responsible for security procedures on board our ships 
24 hours a day. Surveillance cameras throughout our ships 
assist in these efforts.
    All of our ships use an access control system we call 
SeaPass. The SeaPass system provides all guests and crew 
members with an ID card similar to a credit card, which 
provides us access to their digital photo and personal 
identification information. Each time a guest or crew member 
boards or departs a ship, they must swipe their card. Security 
staff compare the photo and personal identification information 
on a computer screen with the person standing before them. This 
technology allows the ship to know which guests and crew 
members are registered on board and which are not at any given 
time.
    All guests and crew members at all sailings are placed on 
an official manifest. Ships sailing to or from the United 
States submit these manifests in advance to U.S. Federal law 
enforcement agencies for analysis.
    Our company also maintains a strict zero tolerance policy 
on crime. Whenever an allegation of crime involves a U.S. 
citizen, it is our policy and our practice to report it to the 
FBI. As I stated previously, on mattes related to safety and 
security, we work closely with the FBI, the U.S. Coast Guard, 
international authorities and private security consultants.
    Cruise ships are one of the safest ways to travel, and 
crime on board cruise ships is extremely rare. On those 
occasions when an allegation does arise, we work very hard to 
assist our guests or crew members as well as their families, 
and we fully cooperate with any investigation conducted by any 
law enforcement agency or prosecutor's office. Again, we do 
this because it's the right thing to do and because we are 
genuinely concerned about everyone on board our ships.
    We understand the impact a crime can have, not only on the 
victim, but also on family members and traveling companions. We 
constantly work to prevent such events, but should they arise, 
we cooperate fully with law enforcement agencies in their 
investigation and assist those affected.
    I would like to take a moment to address an issue of 
particular interest to you, Chairman Shays, the matter of 
George Smith. The Smith family has suffered a tragic loss, and 
we extend our deepest sympathies to them.
    We do not know what happened to George Smith, only that he 
tragically disappeared from a cruise, but we continue to 
cooperate fully with the FBI in hope that the agency will be 
able to provide solid answers and some measure of closure for 
the Smith family.
    As to Royal Caribbean's efforts, we believe that despite 
this terrible tragedy, the cruise line handled George Smith's 
disappearance correctly and responsibly. Specifically, we 
responded to the sole complaint made by a guest, we promptly 
called in the FBI and local authorities to conduct an 
investigation. We secured the Smiths' cabin and the metal 
overhang, and we conducted a thorough search of the ship.
    We subsequently interviewed guests and crew who had any 
knowledge of the Smiths' whereabouts that night, and we 
collected all possible evidence, from security camera tapes to 
charge-card receipts, and provided it to the FBI.
    We know this is a traumatic time for George Smith's wife, 
parents and other family members and friends, but we believe we 
responded appropriately, and we will continue to work with the 
FBI until George Smith's disappearance is explained.
    In closing I would only reiterate that our company and our 
industry maintain robust safety and security policies and 
practices. However, as I previously stated, even one incident 
is one too many.
    We are committed to providing a safe and secure environment 
for everyone on board our ships, and the well-being of our 
guests and crew will always remain the highest priority.
    Thank you again for this opportunity to testify. I would be 
happy to answer any questions.
    [The prepared statement of Mr. Purdy follows:]

    [GRAPHIC] [TIFF OMITTED] T7923.122
    
    [GRAPHIC] [TIFF OMITTED] T7923.123
    
    [GRAPHIC] [TIFF OMITTED] T7923.124
    
    [GRAPHIC] [TIFF OMITTED] T7923.125
    
    [GRAPHIC] [TIFF OMITTED] T7923.126
    
    [GRAPHIC] [TIFF OMITTED] T7923.127
    
    [GRAPHIC] [TIFF OMITTED] T7923.128
    
    [GRAPHIC] [TIFF OMITTED] T7923.129
    
    [GRAPHIC] [TIFF OMITTED] T7923.130
    
    Mr. Shays. Thank you, Mr. Purdy.
    Mr. Mandigo.

                STATEMENT OF CHARLES E. MANDIGO

    Mr. Mandigo. Thank you. Chairman Shays, Chairman Souder, 
and subcommittee member Cummings, my name is Charlie Mandigo, 
and on behalf of Carnival Corp., I wish to thank you for 
inviting me to testify before you today regarding issues 
related to international maritime security. I am here today in 
my capacity as director of fleet security for Holland America 
Line, Inc., a Carnival Corp. company, a position I have held 
for over 2 years.
    Immediately prior to joining Holland America, I served with 
the Federal Bureau of Investigation for 27 years, working out 
of offices in New York, Chicago, Washington, DC, and Seattle. 
In my final assignment, I served as Special Agent in Charge of 
the Seattle Office, where I was responsible for all FBI matters 
in the State of Washington. I have been involved in numerous 
high-profile domestic and international terrorism 
investigations, including overseeing the investigation of Ahmed 
Rassam, the so-called Millennium Bomber, who was convicted in 
2001 for attempting to blow up the Los Angeles International 
Airport during peak air travel in December 1999.
    As director of fleet security, I am respondent for 
overseeing the security of Holland America's 12 cruise ships 
and three other vessels owned by another Carnival subsidiary, 
Windstar Cruises. As you may know, Carnival Corp. and PLC 
operate a fleet of 79 modern passenger vessels, making it the 
largest cruise company in the world. The parent corporation's 
12 widely recognized cruise brands serve markets in North and 
South America, the United Kingdom and mainland Europe, 
providing cruises to vacation destinations worldwide.
    Because of its significant worldwide presence, Carnival is 
attuned to the importance of international maritime security 
and strives to provide a safe and secure cruise experience for 
its passengers. We are in regular contact with governmental 
authorities, other cruise industry companies, and the 
International Council of Cruise Lines in order to assess 
potential security threats and to deliver, develop preventive 
measure and possible responses to those threats. As part of 
this effort, we regularly participate in cruise industry 
security meetings, share security information within the 
industry and with governmental agencies, and interact with area 
maritime security committees.
    Cruise ship security standards have been under development 
and improvement during the last 20 years. These requirements 
have recently been strengthened with the adoption of the 
International Ship and Port Facility Security Code and 
accompanying laws by the United States and other governments 
worldwide. These new security regimes have advanced the 
existing security measures for our passengers and our ships. 
Carnival works closely with foreign countries in which its 
vessels make port calls to assess potential threats to our 
passengers, and to ensure that it is compliant with applicable 
laws governing the security of our vessels.
    In short, Carnival's highest priority is ensuring the 
safety and security of its ships' passengers and crew.
    My written testimony has been submitted for the record, and 
I request it be accepted. I am pleased to be here to 
participate in this hearing, and I will be happy to answer any 
questions you may have.
    [The prepared statement of Mr. Mandigo follows:]

    [GRAPHIC] [TIFF OMITTED] T7923.131
    
    [GRAPHIC] [TIFF OMITTED] T7923.132
    
    [GRAPHIC] [TIFF OMITTED] T7923.133
    
    [GRAPHIC] [TIFF OMITTED] T7923.134
    
    [GRAPHIC] [TIFF OMITTED] T7923.135
    
    [GRAPHIC] [TIFF OMITTED] T7923.136
    
    [GRAPHIC] [TIFF OMITTED] T7923.137
    
    Mr. Shays. Thank you, Mr. Mandigo, we appreciate your 
testimony, Mr. Purdy and Mr. Crye, as well.
    We will start out with Chairman Souder.
    Mr. Souder. First, as I am sure you are aware, but in the 
interest of full disclosure, I represent northeast Indiana and 
there aren't a lot of cruise ships home ported in northern 
Indiana. In fact, to use an Indiana expression, you could count 
them on one hand and have more than enough fingers left to 
bowl.
    But we have a lot of Hoosiers who go on the cruise ships 
all year long, whether it is up to Alaska or down in the 
Caribbean. And so they are concerned. They have seen the things 
on the news, and it is an opportunity for us to explore some of 
these questions.
    Mr. Crye, I wanted to first try to clarify something that 
has confused me a little bit. We have talked about the 
different legal standards, and you referred to your testimony, 
about the different standards and different places. Would you 
agree that a U.S. citizen has the most rights when they are in 
U.S. waters?
    Mr. Crye. I would.
    Mr. Souder. You said, I believe, in your testimony, that 
most of the time in the Caribbean we have agreements with that, 
but there are some places that there aren't as many 
protections.
    Mr. Crye. I would say that under 18 U.S.C., the sections 
respecting the special maritime and territorial jurisdiction of 
the United States, the FBI, and by deputization, other agencies 
of the Federal Government, have the authority to investigate 
fully any accusation of crime on the high seas, particularly 
for vessels that are calling on U.S. ports, but also under the 
theory of the special maritime and territorial jurisdiction for 
vessels that do not call on U.S. ports.
    Mr. Souder. Do cruise ship lines tell their customers which 
areas they may be going into where their protections may be 
more problematic because of past diplomatic, how fast they can 
get clearance, because your testimony suggested there were 
differences in the Caribbean, and you just stated that you 
thought they were safest--you didn't say safest--you said the 
most protections in the United States. Is there any way that a 
person going on a cruise line could find out those relative--
admitting even that even in the worst cases, your statistics 
aren't overwhelmingly bad. I am just asking you, if I wanted to 
know where I would have the most rights, would I be able to 
find that out?
    Mr. Crye. Well, No. 1, sir, there is requirements under the 
International Ship and Port Facility Security Code for 
publication of information regarding incidents of piracy, 
incidents of lawlessness, etc., and that's a requirement that 
is placed upon the vessel to ensure that they meet the 
appropriate security level or they simply don't go there.
    Mr. Souder. But you don't give that to consumers. If 
somebody asks, would you tell them that, the different 
countries?
    Mr. Crye. The information is publicly available on the 
International Maritime Organization's Web site regarding 
higher-threat security areas. The Department of State of the 
United States publishes traveler's advisories, etc., sir.
    Mr. Souder. In pursuing this slightly differently, are 
protections--are there different----
    Mr. Shays. Could the gentleman just yield a second?
    Mr. Souder. Yes.
    Mr. Shays. When you say they publish, they don't publish 
crimes, they publish piracy, correct?
    Mr. Crye. They publish traveler's advisories. They also on 
the International Maritime Organization's----
    Mr. Shays. I want to make sure you are hearing my question, 
and answer the question, then give me the details. They publish 
warnings about potential terrorist activities, piracy and so 
on, not about crimes being committed on a ship, correct?
    Mr. Crye. Correct, sir.
    Mr. Shays. I am sorry.
    Mr. Souder. My understanding of your answer, which to me 
illustrated what we were trying to do earlier, is that in fact, 
you would have to really know what you are looking for to find 
the data, other than going to the State Department and saying, 
oh, you know, it is better not to go to Nigeria, or better not 
to go to Ethiopia or Cuba. In other words, you don't give the 
data. You don't voluntarily say there are different legal 
standards in these different areas. You would have to know what 
you are looking for to find that.
    Mr. Crye. Well, sir, I think any international traveler 
that goes on international travel, looks at the State 
Department advisories; those types of advisories are readily 
available to the public. Most cruises are sold through travel 
agents, and those travel agents, we frequently communicate with 
them about issues that should be of concern to them.
    Mr. Souder. I am sorry. I don't have a dog in this hunt, so 
to speak, but that answer is not acceptable. Now, it is one 
thing to say there is a State Department threat that you are 
going to go to a certain area, and that if you want to go 
down--we have had warnings in Panama, for example. If you want 
to go out in the jungle there with the Colombian guerrillas 
coming over, that might be unsafe. But I don't think it is 
generally known, somebody who goes on a cruise ship, that they 
have certain rights in some areas, and there may be less rights 
in other areas on the cruise ship when they are on a contained 
ship. And that to suggest a comparison between the two is just 
unfair.
    I am not even suggesting it is a huge problem. I am just 
saying that if I really wanted to find that out, I would have 
to do a lot of digging, and I travel a lot. But I wouldn't have 
thought--that would be like telling me if I go on a CODEL with 
the military, that I am going to run into--or some kind of a 
private trip, that I am going to run into whole bunches of 
legal differences in different places. I was just asking a 
question, and you are trying to tell me it is a State 
Department thing. That doesn't have anything to do with my 
question.
    The question was, is that are there standards of evidence 
procedure if I am sexually assaulted and so on? Am I going to 
wind up in an international law different if I am going to some 
Caribbean countries and other Caribbean countries? Obviously, 
if I go as an individual and go off on my own and rent a car, I 
am going to check that more. But when I am on a cruise ship, I 
think most people assume there is some kind of uniform 
standard, and what we are learning here is that there isn't, 
that we don't know how serious a problem that is because we 
don't have the data, but what you told me, and you are 
continuing to say, is you are not going to give me that 
information, I have to be able to figure it out as a traveler. 
And part of the question is, is how much disclosure should 
there be?
    Mr. Crye. Sir, are you talking about on board the ship?
    Mr. Souder. Yes, that was the----
    Mr. Crye. Are you speaking of on board the ships?
    Mr. Souder. I think anybody who is watching this hearing or 
look in the record will show that you stated that you had the 
most legal rights in U.S. territories. You stated in your 
testimony that in most Caribbean countries, we have exchange, 
which suggests that in some Caribbean countries there wouldn't. 
And then you got off into a terrorism, State Department thing, 
which is not what my question was. You answered the question.
    Mr. Crye. Sir, I----
    Mr. Souder. You said that we could go to the Maritime 
Commission if we wanted to try to find out what the State 
Department thing was, which clearly said--when I asked you the 
overt question, do you publish the data of your legal rights 
for different parts of your trip, basically, you told me no.
    Mr. Crye. Sir, in the ticket package, you are advised of 
your rights, your legal rights respecting the carriage. You're 
notified of that when you enter into the contract with the 
cruise line with respect to your legal rights, and the 
responsibilities of the cruise line respecting the laws that 
apply, as well as their responsibilities and your 
responsibilities. Is that the question?
    Mr. Souder. That is helpful. Now, let me ask you this 
question. Do all the cruise lines have the same disclosure, or 
does it vary by cruise line?
    Mr. Crye. They have a responsibility under the laws of the 
United States to disclose to their passenger what your rights 
and responsibilities are of both parties to a contract, and 
generally, it depends on where the ticket is sold, it depends 
on where the passage occurs, it depends on where the vessel is 
domiciled and flagged, etc.
    Mr. Souder. Does your association have a standard that you 
suggest to your members that says, this is the legal rights, 
that you should do that, or when I sign up is it going to vary 
by cruise line what they are telling me my legal rights are?
    Mr. Crye. It's a matter of U.S. commercial law.
    Mr. Souder. So it will be the same on each cruise line?
    Mr. Crye. It will be the same with respect to the U.S. 
citizens, where they buy their tickets, etc.
    Mr. Souder. So there will be a difference. I wanted to know 
whether it was everybody or just your members. So would you say 
every cruise line anywhere based in the world, if you get on a 
cruise, whether you board in Norway, you board in the 
Caribbean, you board in Mexico, or board in the United States, 
you are going to get informed of your rights as a U.S. citizen?
    Mr. Crye. If the ticket is sold in the United States, the 
U.S. commercial laws apply.
    Mr. Souder. Would you then agree that you are more likely 
to have your full rights if you buy your ticket in the United 
States?
    Mr. Crye. Sir, it depends on what you mean by full rights, 
because different countries interpret full rights differently.
    Mr. Souder. That in itself answers my question.
    Mr. Crye. And there are those who would argue that the laws 
of Norway or the laws of the United Kingdom, or maybe even the 
laws of Bahamas are--provide you with more rights in a 
commercial contract than you are provided in the United States.
    Mr. Souder. Fair point, but the key thing here would be is 
a buyer should know, based on where they are buying their 
ticket, their rights may vary.
    A second thing is that would in a similar way in the 
different cruise ships, if you were in a cruise that you 
boarded outside of U.S. law--I think you kind of answered this 
already--but would laws of evidence collection, laws of 
reporting, potential penalties if the cruise line didn't handle 
something, would that be different than if you boarded in the 
United States?
    Mr. Crye. I'm not sure I fully understand the question. 
Countries have different systems of law and different 
evidentiary standards, depending upon whether a case is brought 
in that country or not. I thought we were here today though 
talking the enforcement of U.S. laws for U.S. citizens. I was 
not prepared to talk about the rules of evidence in the Bahamas 
or the United Kingdom, or the Netherlands, which are other flag 
states of the cruise industry.
    Mr. Shays. If the gentleman would yield, I think it is----
    Mr. Souder. I am baffled because, of course, you are here 
to talk about those things because your testimony, as your 
testimony said, this went into international waters, there is 
cross-jurisdictional. So I start to ask some cross-
jurisdictional questions, and you are saying that you weren't 
prepared to answer those questions. I don't know how to ask a 
question. I yield back.
    Mr. Shays. Mr. Cummings.
    Mr. Cummings. I will tell you, Mr. Crye, I have to ask you 
this. Have you read Ms. Jennifer Hagel Smith's statement? Are 
you familiar with it?
    Mr. Crye. I read it briefly just at the beginning of the 
hearing today, sir.
    Mr. Cummings. Are you married?
    Mr. Crye. Yes, sir, I am.
    Mr. Cummings. One of the things that she says--I only have 
one question of you because I want to talk to Mr. Purdy, but 
here is a woman who has lost her husband, and it just seems 
like she is treated in a way that is simply incredible. It is 
hard for me to even imagine if that happened to my daughter. I 
would have a rough time. But then if I read that Michael Crye, 
president of the International Council of Cruise Lines--and I 
am just reading from her statement, OK--blamed George's death 
on both of us by stating, ``it's difficult if someone chooses 
to do harm to themselves or to their companion.''
    Then she goes on to say, ``I don't know if Mr. Crye is 
married or if he has children of his own, but I find his 
reckless remarks offending our reputations and character both 
hurtful and irresponsible.''
    Mr. Crye. May I address that?
    Mr. Cummings. Yes, please.
    Mr. Crye. There was a media interview that was a wide-
ranging media interview. It was not addressing the facts of the 
George Smith case. It was addressing other cases and other 
facts, and as it relates to one of the four possibilities that 
Chairman Shays previously addressed, that was certainly one of 
the possibilities, that people do harm to themselves. They do 
it here in the United States every day. They do it in your 
jurisdiction as well. It had nothing to do, the question, the 
answer, in a media interview, had nothing to do with the George 
Smith or Mrs. Smith situation.
    Mr. Cummings. I guess the reason why I even brought it up 
is because I think sometimes in these hearings, we are 
certainly trying to find answers to prevent things, but then 
there come some facts that sort of just comes, and it is like 
shocking to the conscious, and you cannot rest until you try to 
figure out why is this? I understand what you just said, and I 
guess the thing that I was concerned about is whether we are 
suffering from what Senator Obama calls ``an empathy deficit.'' 
I think that we just have to be very careful in circumstances.
    I will tell you, just the thought of getting married 1 day 
and then 10 days later on my honeymoon, it is a nightmare. It 
is just very, very, very, it is painful to me just thinking 
about it. I didn't even experience it.
    Mr. Crye. I agree, sir.
    Mr. Cummings. Let me go to you, Mr. Purdy. What is your 
position?
    Mr. Purdy. My position is director of safety, security and 
environment at Royal Caribbean Cruises, sir.
    Mr. Cummings. So that means you are the top law enforcement 
person; is that an accurate description?
    Mr. Purdy. Sir, we have two operating brands under our 
company, and I work at the corporate level, developing policy 
standards, conducting oversight, audits, and assisting if we 
have serious situations, sir.
    Mr. Cummings. What is the policy when it comes to a crime 
scene? That has been an issue here. I am not trying to get into 
the Smith case. I am just trying to figure out what is your 
general policy?
    Mr. Purdy. The general policy is first, once we establish 
that there has been even any allegation, that we secure the 
scene. We preserve the evidence and we make a report to the 
authorities.
    Mr. Cummings. I think you said that in the Smith case you 
all promptly reported to the FBI; is that right?
    Mr. Purdy. Yes, sir. In fact, this is indoctrinated in our 
personnel that receive these calls. That call came from the 
ship to Miami. Miami received the call, the duty person, at 
approximately 3 a.m., and immediately, without questioning 
further guidance, called the duty FBI person and notified them 
of this allegation in this case.
    Mr. Cummings. Now, when we have a situation where--I think 
it was you who said it--where you said that there is some--
correct me, one of you said this--that sometimes the FBI is 
notified and sometimes the FBI is not. Of course, I am talking 
about where there is a U.S. citizen involved. Did one of you 
say that?
    Mr. Crye. Mr. Cummings, I believe that was myself. May I 
elaborate?
    Mr. Cummings. Yes, please.
    Mr. Crye. First of all, sir, the FBI has provided the 
industry some guidance on what they consider to be a case that 
meets the threshold of their opening a case file. Second, there 
are certain standing agreements with other agencies of the 
United States, such as ICE, within the Department of Homeland 
Security, Immigrations Customs Enforcement group, within the 
Department of Homeland Security, with respect to reporting of 
narcotics offenses. In the event that the FBI doesn't want to 
take a report of a theft that doesn't meet their threshold, 
then we must in fact report that to another authority, 
typically the State enforcement authorities, or the port where 
the vessel calls, etc.
    In addition, given the fact that the FBI does not have a 
great deal of resources in certain locations like Alaska, we 
have a standing agreement to report offenses that occur on 
board in Alaskan waters to the Alaska State Police, and other 
situations that involve foreign nationals are not necessarily 
reported to the FBI. Does that answer your question?
    Mr. Cummings. That is very helpful, yes.
    Mr. Purdy, what is the policy with regard to--let me just 
tell you where I am going instead of going through the back 
door. You have Ms. Smith, she leaves the ship and then she has 
apparently left there in a foreign country to talk to the 
Turkish police. Just give me a general idea of what your policy 
is, because let me tell you something, I don't think there is 
one Member of Congress, if somebody walked into our office and 
slipped and fell, and let us say they were by themselves, I 
guarantee you there is not probably one Member of Congress that 
would not make sure there is a staff person that gets that 
person to the hospital, stays with them, and sticks with them 
until the issue is resolved. That is just for a slip and fall.
    Here you have someone who has lost their husband in a 
foreign country, so I am just wondering what is your policy 
with regard to that?
    Mr. Purdy. Yes, sir. This is the first time that I have 
read that statement from Mrs. Smith. My understanding of this 
is that she was required to go off the ship, along with our 
ship's captain, several other officers, and some other guests 
as part of the investigation.
    Our policy is that we are very caring for people in this. 
Safety is our highest priority. In this case, my understanding 
is that we provided a female guest relations manager as an 
escort. We also had an escort from the U.S. Consulate Office, 
as well as the ship's port agent to provide for any, and to 
assist with accommodations. We also offered Mrs. Smith the 
ability to stay on board the ship until the next port of call 
where she could depart the ship. I think it was her decision to 
leave in Kusadasi, which meant flying out the next day. We left 
her the contact information for the port agent should she need 
anything.
    That aside, if this happened the way it did, we regret any 
action which made Mrs. Smith feel insecure or unsafe in any 
way.
    Mr. Cummings. I think she said she was left, she didn't 
have any money, and she was basically stuck in a foreign 
country. So what you are saying is that in reading her 
statement, if that is what--I know you are denying you have 
other information, I understand that. But what you are saying 
is that if her statement was accurate, that would be contrary 
to your policies?
    Mr. Purdy. Yes, sir.
    Mr. Cummings. Because you would not be in business.
    Mr. Purdy. Absolutely.
    Mr. Cummings. Just a few more questions. I just want to go 
to the statement of George Smith and Ms. Maureen Smith. I want 
to just figure out, what is your policy? Let's say a criminal 
act, a suspected criminal act takes place. You have a crime 
scene. Do you lock down the crime scene? Say, it is a room, for 
example. I am just dealing with your policies, OK? What is your 
policy?
    Mr. Purdy. Our policy is that if there is any allegation of 
a crime, that we will secure the scene, preserve the evidence, 
contact the authorities and fully cooperate with the 
investigation.
    Mr. Cummings. I take it that you are saying also that the 
crime scene would be preserved as best you could?
    Mr. Purdy. Yes, sir.
    Mr. Cummings. Is that made more difficult when you have a 
floating crime scene?
    Mr. Purdy. I would say that because of the environment 
where we operate, it is perhaps more challenging; however, any 
request from the authorities, we will do our best to honor that 
request and cooperate.
    Mr. Cummings. Who would be the authorities then?
    Mr. Purdy. The authorities in this case, we were in touch 
with the FBI because this involved a U.S. citizen. We also were 
in touch with the Turkish authorities because the ship was in 
Turkish port. We notified the Greek authorities because the 
ship had sailed through Greek waters, and as a matter of fact, 
they launched their own search. We also notified the U.S. 
consulate in Turkey, and we also notified the Bahamas Authority 
in London because our ship is a Bahamian registered ship.
    Mr. Cummings. Let me ask you this. What is your policy 
then, if you have a possible crime taking place, let's say you 
know or you suspect that somebody on that ship may have done 
something. Are people allowed to go on and off the ship?
    Mr. Purdy. Sir, again, it's case by case, and we cooperated 
with the authorities. In this case, the Turkish authorities 
took the lead on the investigation in the initial stages, and 
we complied with every request that the Turkish authorities 
had, as well as being in communication with the FBI.
    Mr. Shays. If the gentleman would yield?
    Mr. Cummings. Please.
    Mr. Shays. That is not really the question that he asked. 
He basically asked you what is your policy, and what you sound 
like is that your policy is whatever you have to do by the 
authorities.
    Mr. Purdy. Sir, our policy is to fully cooperate with the 
authorities. If they determine that we need to lock down the 
ship or do anything with that ship or the people, we comply.
    Mr. Shays. But don't you have your own policy? I mean why 
does the authorities tell you? I mean aren't there some basic 
things--hold on 1 second, Mr. Crye, I will come to you--aren't 
there some basic, just sound practices that you should do, 
period, case closed, and aren't you trained and don't you train 
your people to do them?
    Mr. Purdy. Yes, sir, we do. In this case, our training is 
again to secure the scene, to preserve the evidence and to 
cooperate with the authorities.
    Mr. Cummings. So going back to what Mr. Shays was saying, 
you do have a policy with regard to that?
    Mr. Purdy. Yes, sir.
    Mr. Cummings. And that policy is written somewhere, is that 
right?
    Mr. Purdy. We have a comprehensive security management 
system, and it does detail how our security need to preserve 
crime scenes, or alleged crime scenes.
    Mr. Cummings. I am going to ask that question again. Is it 
written somewhere? You said you have a system that does this 
and does that, but is it a written document?
    Mr. Purdy. Yes, sir, it is written.
    Mr. Cummings. I mean is it a book or volumes or what?
    Mr. Purdy. It is a system of electronic manuals.
    Mr. Shays. If the gentleman would yield?
    Mr. Cummings. Sure, please.
    Mr. Shays. We would like you to make sure that is submitted 
for the record.
    Mr. Purdy. Yes, sir.
    Mr. Shays. Thank you. What is the document called?
    Mr. Purdy. The document is our Safety Management System, 
sir.
    Mr. Shays. Thank you.
    Mr. Crye. Mr. Chairman, Mr. Cummings, the International 
Safety Management System, which is part of the Safety of Life 
at Sea Treaty, which is widely ratified throughout the world, 
identifies the requirement to maintain a safety management 
system. The safety management system controls many, many 
protocols. There are certain things that would be contained 
within the safety management system that should not be included 
in a public record. But it is a requirement under international 
law to maintain such a system. That system is audited by your 
flag state, by your internal auditors, by your external 
auditors, and is available for port state control inspectors 
such as the U.S. Coast Guard, which would be the port state 
control inspectors here in the United States. I am not sure 
that you want an entire safety management system turned over to 
you for the purposes of this record, and second of all, I am 
not sure that you want to be a record that then becomes a part 
of a public record of this hearing.
    Mr. Cummings. Mr. Shays can tell you what he wants. But let 
me just tell you what I specifically asked, is it a book, a 
volume, what is it? All I am saying is that I thought it was 
something in the form of a manual or something that people, 
when they come on board, when they begin to work for you in law 
enforcement or whatever, regular employees, whoever, would 
read. And you are saying it is something, an electronic kind of 
thing; is that right?
    Mr. Purdy. No, sir, it is a manual. We keep it updated just 
electronically, but the crew members have access to this 
document.
    Mr. Cummings. That is what I am interested in. Mr. Shays 
may want something else.
    You were just talking about this system. Does the system 
talk about how you prevent evidence from being taken off of the 
boat? Let me tell you why I ask you that. Mr. George Smith 
talks in his statement about the cruise ship was not locked 
down in a certain city in Turkey, the next port of call after 
George's disappearance. Passengers and crew members were free 
to disembark as usual, potentially--listen to what he says--
potentially taking crucial evidence off the cruise ship with 
them. If that were true, and I am assuming it is, would that be 
contrary to that policy that you just talked about?
    Mr. Purdy. For our company, sir, because they have 
identified, in working with the authorities, that the alleged 
scene was the cabin, we had posted a guard in front of the 
cabin and the overhang, secured those areas until they 
completed their investigation, and nobody had access to those 
areas.
    Mr. Cummings. All right, thank you.
    Mr. Shays. Could I say something to you, Mr. Purdy?
    Mr. Purdy. Yes, sir.
    Mr. Shays. I mean I know I can. I want to say something to 
you. I want to make sure that you are telling me fact and not 
policy, because you are under oath, and we need to make sure 
that everything you put under oath is really accurate. If you 
have total confidence in what you just said, that is good. I 
just hope you are not being set up by someone. Do you know for 
a fact that it was totally secured, no one else went in there 
except those people who were authorized?
    Mr. Purdy. That is my understanding, sir.
    Mr. Shays. And your understanding is based on what?
    Mr. Purdy. My understanding is on reviewing with our staff, 
who were involved in the actual case.
    Mr. Shays. Their accusation is that may not be true, so I 
just want to make sure you are comfortable. You are saying the 
staff that is involved with the security has told you that this 
was totally controlled, no one got into it except whom? Who got 
in there?
    Mr. Purdy. To my knowledge, the Turkish authorities along 
with the security staff were the only ones who had access to--
--
    Mr. Shays. Security staff of whom?
    Mr. Purdy. Of the ship, sir.
    Mr. Shays. Your own security staff?
    Mr. Purdy. Yes, sir.
    Mr. Shays. Would you define that security staff as 1, 2, 5, 
10, 20 people, how many people?
    Mr. Purdy. I know we had one security staff posted to 
secure the cabin. I am not aware of how many were there that--
--
    Mr. Shays. Because the more people that go in, the more it 
gets disturbed. What comfort level should I have that--you 
know, how you define your own security staff? I mean there are 
police officers, and there are detectives, and there are people 
in our country who have greater knowledge of what happens on a 
crime scene. You are saying that the only people who had access 
were the Turkish officials and your security staff. I am going 
to get into how your security staff are trained, to know the 
number and so on.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Thank you.
    The first thing, I think the Smith incident was very 
unfortunate. The facts will come out, and I am glad we are 
reviewing this. Unfortunately, for the family it might be 
difficult, but we need to learn from past incidents.
    I am interested though from my perspective, we are talking 
about over 5 to 6 million Americans that are involved in your 
industry, and I think so far that your industry has been very 
positive. It has allowed a lot of people to have pleasure, to 
go places they normally would not be able to go. But whenever 
an incident, even if it is a small amount of cases and a trend 
starts, I think an industry such as yours that does so well and 
has basically a good safety record except for some of these 
incidents, that you have to reevaluate where you are. I asked a 
question of the first panel: would they be willing, that was 
the Coast Guard, the FBI and the Navy, to meet with your 
industry, and to review what the standards are.
    I knew there were some issues, international law requires 
you to have certain protocols, and there is an audit, and I 
think that is important because I think everybody needs to be 
held accountable, but maybe we need to reevaluate that, at 
least on behalf of the 5 million Americans that we represent 
that are within that industry.
    So what I am going to ask you--and then I will take your 
question--I am going to ask you, will you work as an industry 
with the members of the FBI, and our subcommittee? You say that 
you don't want what we want. I am on the Intelligence 
Committee. There is a lot I can't talk about, but I would like 
our staff here to review and evaluate under direction of 
Chairman Shays, and to find out what issues need to be dealt 
with so we can make sure that all Americans who use your 
industry. A lot of you are not American ships, so we might not 
have the same authority or not. So I am asking the question. 
Where are you from, Mr. Crye? I had to move in and out in this 
hearing.
    Mr. Crye. I am the president of the trade association, sir, 
of the International Council of Cruise Lines.
    Mr. Ruppersberger. How about you, Mr. Purdy?
    Mr. Purdy. I am from Royal Caribbean Cruises, sir.
    Mr. Ruppersberger. Mr. Mandigo.
    Mr. Mandigo. Holland America.
    Mr. Ruppersberger. Would you all be willing----
    Mr. Crye. Can I answer your question?
    Mr. Ruppersberger. I am asking the question, so I would 
love an answer.
    Mr. Crye. We do so every 60 days. We meet today, every 60 
days here in Washington with the U.S. Coast Guard, the 
Department of Transportation, the Office of Naval Intelligence, 
the Department of State, the U.S. Customs and Border 
Protection, the Federal Bureau of Investigation, the Department 
of Defense--the Central Intelligence Agency sometimes comes--
the Department of Homeland Security and the Transportation 
Security Administration. And every 60 days in a meeting that we 
host here in Washington to discuss specifically the issues that 
you address, and we would be glad to include your committee 
staff.
    Mr. Ruppersberger. I think that is great. By the way, you 
have a good record. But here is what I would like to see more. 
I think you are dealing with those different groups, and you 
are talking about issues involving terrorism and safety and 
things of that nature. I understand that. I am more interested 
though--and sometimes we think about this--in your standards of 
your employees on the ships. I am more interested to know, do 
you have security? What is the background? What is their 
training? What happens when there is an incident, either a 
crime committed on board by other people on board, whether or 
not there are people who go on cruise ships just to rob people. 
That happens wherever there are people. Do you have standards 
as it relates to medical? I think you do. But we might need 
other standards.
    I think an industry that is so popular as your industry, 
would want to even take it a step further, and I think that is 
what we are getting to here, at least what I am getting to here 
on your industry. Once the camel's nose gets in the tent, 
sometimes it gets bigger and bigger. We don't want to get it to 
that level. You seem to be cooperative. We are not here to give 
you a hard time, but there are some incidents that have to be 
dealt with, and more and more there is a problem.
    Another issue I want to ask about too, because I had a 
personal experience, but I am not going to get too much into 
it. I see that because you are so popular and you have to keep 
getting back and forth to your ports, what about the issue with 
respect to weather? I am not talking about hurricanes, nobody 
is going to go into a hurricane, but the standards when a 
captain has to make it to a certain port to get there, 
notwithstanding the fact that it could be one of the bumpiest 
rides that you will ever have in your life? What are your 
standards with respect to having to make your deadline to get 
to the port to pick up the new group and drop the group off? Do 
you have any standards as it relates to weather with respect to 
any safety?
    Mr. Crye. Safety of life at sea is the ultimate 
responsibility of every captain, and he will not compromise the 
safety of that vessel to meet any schedule whatsoever. That is 
the responsibility of each master on board the ship.
    Mr. Ruppersberger. Does he have incentives or deadlines 
that he has to get back to another port on time?
    Mr. Crye. If it is a matter of safety, those deadlines 
don't apply.
    Mr. Ruppersberger. Do you call safety when you are maybe 
going through a storm and for over an hour it is almost you are 
thrown out of bed? Is that considered safety or non-safety, or 
how do you define safety, the ship just won't go over, but 
unfortunately you are going to have to deal with that? I am 
just asking the question. I am not criticizing.
    Mr. Crye. Unfortunately, we are talking about the ocean, 
and occasionally there is significant waves, there are 
significant weather events that occur. Fortunately, today we 
have pretty effective methodology to predict the course of 
storms, and to avoid those, the paths of those storms. But 
occasionally there will be the event where you are transitting 
through rougher ocean. We do everything that we can to minimize 
that from happening, but occasionally it happens.
    Mr. Ruppersberger. It is like the airline, the pilot versus 
the captain, the pilot of the airline, and that is their 
judgment, based on weather and radar and things of that nature.
    Let me ask you this, Mr. Chairman. We need, I think, to 
really try to talk a little bit more about standards of a 
system that is set up as far as not--I really applaud you for 
meeting with the FBI and the different groups that you are 
talking----
    Mr. Shays. If the gentleman yields on that.
    Mr. Ruppersberger. Yes.
    Mr. Shays. I am uneasy with your description of the purpose 
of those meetings. The purpose of those meetings are basically 
dealing with security issues, intelligence about criminal 
people, terrorist concerns and so on, correct?
    Mr. Crye. In addition we have manifest requirements, 
automated manifests that must be filed with the U.S. Coast 
Guard, the Department of Homeland Security----
    Mr. Shays. No, no. Mr. Crye, his question related more 
about getting together to set up new standards I think.
    Mr. Ruppersberger. A standard, and you know, you can market 
this too. It is a marketing tool so people feel secure. I am 
talking about it is great to find out if there is a chain of 
burglars or if we have terrorists that are trying to move in 
and out or get in through different areas. I am talking about 
basically, in medicine you have a standard, accounting you have 
standards. You also need accountability. I am asking who are 
your employees? Do we have a standard of certain qualifications 
that when you are dealing with so many people on a ship, that 
in the event an incident occurs, whatever that might be, that 
you have the people with the expertise to deal with it on the 
ship, and other than just hiring this person who might have 
been working in one area, now another area. That is why a lot 
of former FBI agents are hired, and that is why former police 
officers are hired.
    We are talking about the security of the people that get on 
the ship that rely on that, and I don't think you are doing a 
bad job, but I am worried about the trends, and I think that we 
had better evaluate it so that you can keep an industry that a 
lot of people love. Five million people in this country do it 
every year.
    Mr. Crye. Yes, sir. We constantly look at those types of 
standards and procedures and industry protocols. In addition, I 
mean, we developed our zero tolerance for crime policy in 1999, 
where all incidents of any kind of allegation of crime, would 
be reported to the appropriate authorities, and----
    Mr. Shays. Excuse me, I have to interrupt here. Hold on 
just a second. Zero tolerance of crime?
    Mr. Crye. Yes, sir.
    Mr. Shays. So if there is someone has lost $7,000 instead 
of $10,000, it will be reported?
    Mr. Crye. My understanding, yes, sir.
    Mr. Shays. Your understanding. Isn't the threshold $10,000?
    Mr. Crye. The threshold for the FBI to accept the report is 
$10,000.
    Mr. Shays. Right. So they are not notified if it is less 
than $10,000.
    Mr. Crye. The FBI, no, sir.
    Mr. Shays. So describe to me zero tolerance for someone who 
had $7,000, and they were told by one of your companies that it 
didn't meet the threshold.
    Mr. Crye. For reporting to the FBI.
    Mr. Shays. Yes. That doesn't sound like zero tolerance for 
crime.
    Mr. Crye. That doesn't mean it wasn't reported, sir. I 
don't know of this particular circumstance at all.
    Mr. Shays. I am sorry to interrupt.
    Mr. Crye. That doesn't mean it wasn't reported to the 
appropriate law enforcement authority. It may not have been 
reported to the FBI because of their guidelines regarding what 
they would accept for a report, but that doesn't mean that it 
wasn't reported to the appropriate law enforcement authorities.
    Mr. Shays. In a letter from Royal Caribbean when they 
complained about a problem that they had with theft of jewelry 
for $7,000. It was addressed to Ira and Myrtle Leonard, who 
complained, from Hamden, CT. It then said, ``Dear Guests, As 
per our conversation today, I have explained that we are not 
required to report alleged thefts with a value less than 10K. 
Although we genuinely sympathize with you for your loss, we 
regret we are unable to compensate you for your personal items. 
All claims are evaluated according to your passenger ticket 
contract, which we suggest you review for further 
clarification. If you have not done so already, we suggest you 
consider your claim to your travel or private insurer for 
consideration.''
    It just strikes me that doesn't sound like zero tolerance.
    Mr. Crye. Sir, I think that specific case should be taken 
up for us to determine exactly what was done in that 
circumstance, and where Royal Caribbean----
    Mr. Ruppersberger. Using that specific case, there is an 
example of setting up the system. It is like managing anything. 
You have a system. You have people who are managers. You hold 
people accountable. You have audits, that type of thing. But it 
is about a system.
    One of the things I find frustrating in being a Member of 
Congress sometimes, is that we have these hearings, and then we 
don't have follow-through. I think this is a case that would 
benefit your industry and also Members of Congress that are 
looking after people, to really start talking about it, and 
especially because there are a lot of ships that are not 
American ships--Royal Caribbean is one--that if we can set up a 
standard that may be international. I think you need more. You 
need job descriptions of who is on there, what is on there, 
what happens with the standards. You probably have a lot of 
that now, but I think you need to look at it so that we can all 
feel secure. Sometimes perception becomes reality and we need 
to deal with this.
    One other thing.
    Mr. Crye. Yes, sir. I think we would be pleased to work 
with that.
    Mr. Ruppersberger. I would like if the chairman could have 
staff maybe follow through what we are talking about, Mr. 
Chairman, and maybe we could do something here that would 
benefit both.
    One other thing. I don't know if this question has been 
asked, but it is a situation you are going to have to deal with 
from a public relations point of view, and I just want to ask 
this question. It might have been asked. I am sorry, I had 
other meetings I had to go back and forth to, and maybe you 
can't answer the question or you have. We have read the report 
where Mrs. Smith was put off the ship. Why wasn't she given 
more help and cooperation when she was told to go to Turkey? I 
know the report said that two members of security took her to 
see the authorities, but basically other than, wasn't given 
money or anything of that nature. I read the report. If the 
question has been answered, then that is OK, but I would like 
to know from my perspective what happened, and is that 
something you are looking at, evaluating, bad judgment? What 
happened there?
    Mr. Purdy. Sir, I will answer that. We did discuss this. 
This was information I saw for the first time today. We will 
take it back and go through it. Our understanding was that we 
did provide a female guest relations manager, U.S. consulate, 
ship's port agent, all of this in an event to make 
accommodations. And we expressed our regret if there was in any 
way if Mrs. Smith felt insecure or unsafe. It certainly is not 
our company culture, and it should not have happened if it did.
    Mr. Ruppersberger. And if it didn't, you look at it, and 
that is why we need standards again, certain systems and 
standards. OK, thank you.
    Mr. Shays. I thank the gentleman.
    The concern I have is the same kind of marketing that goes 
on in Las Vegas that says, what goes on in Las Vegas stays in 
Las Vegas. When I attribute it to your industry, I feel like 
everything on board stays on board the ship, including 
disclosing bad information. So I am candidly, very suspicious 
of the statistics that are presented. I think there is a 
disincentive for you to provide statistics, and I have a number 
of questions that relate to that issue, but also just security 
in general. I am separating the whole concern I have about 
terrorism and how we deal with terrorism and piracy and all of 
that, which I know this industry is working night and day to 
deal with.
    I would like to know, to start, how many security people 
you usually have on board ship, or if it is a city, if it is a 
city--maybe, Mr. Crye you can start--if it is a city in general 
and you have 2,000 guests, you have, what, 1,000 employees? Is 
it a 2 to 1 ratio? What is the ratio of employee?
    Mr. Crye. It depends, sir, on the type of vessel. If it is 
a vessel that is more mass marketed, the ratio is lower.
    Mr. Shays. So what would that be, a mass market?
    Mr. Crye. It would be 2 to 1, 3 to 1.
    Mr. Shays. OK, but you could have----
    Mr. Crye. To more than 1 to 1.
    Mr. Shays. Let's just take a ship with 2,000 guests, 1,000 
employees. Is there a ship like that?
    Mr. Crye. Yes, sir.
    Mr. Shays. How many of them would be security? And then 
define security to me.
    Mr. Crye. I can tell you, sir, that under the International 
Ship and Port Facility Security Code, that all of the crew 
members, all 1,000 have a security function, and have a certain 
amount of training and orientation as it relates to security.
    Mr. Shays. Is it security though in terms of fire, in terms 
of having to abandon ship, that kind of security?
    Mr. Crye. And also security as it relates to securing the 
vessel from different situations, but there is also, under the 
International Ship and Port Facility Security Code, the 
requirement for a security officer whose sole function is that 
job, as well as a security staff who works for him whose job--
him or her.
    Mr. Shays. Let's focus on them then. How many are solely 
focused on security and how many of them carry weapons?
    Mr. Crye. To answer that question would potentially 
compromise the security plans. I can certainly answer those 
questions for you candidly----
    Mr. Shays. I am smiling in a way because if I----
    Mr. Crye. I would be pleased to answer those questions to 
you in a closed session----
    Mr. Shays. I am smiling because in Darien, CT, I can name 
you how many police officers exist. I don't think we endanger 
the people of Darien, CT, when I tell you the number of police 
officers. It is printed in the newspaper. I don't think it 
endangers the city. Yet this is a city, and so tell me why--
don't tell me the number. Why would it endanger to know how 
many officers, because you don't have enough?
    Mr. Crye. If you were a terrorist, sir, and as a result of 
this public record, you said, ``OK, all I have to do is have 
that many security officers plus five, or that many security 
officers plus 10 to overcome the--and we can go on and on and 
on with respect to the defense mechanisms on board the ship, 
and you can ask me all of those questions. And the more of 
those questions I answer, I'm giving the bad guys a blueprint 
for exactly how to go about attacking that vessel.''
    Mr. Shays. I agree with that in one way, or I could say it 
another way. If you gave me a number that was pretty large, it 
might tell me I would never want to attack your ship, so it 
could be a plus or a minus. If you gave me a low number, yes, 
it would be very tempting, and that is what makes me concerned. 
If your number was a high number, I don't think we would 
endanger the public. I think you would basically say you don't 
want to fool around with us.
    Mr. Crye. That's why, that's one reason why I told you that 
every crew member on board that vessel has a security function.
    Mr. Shays. We will get into that in a private way.
    Mr. Crye. We'd be pleased to do so, sir.
    Mr. Shays. I know you will, but I will tell you that my 
folks have gone on cruises, my friends obviously have. I 
haven't yet, and want to someday when I can get a week. But 
what I am told is that if there are security people around, 
they are hard to see. So is it your practice basically to have 
most of your people undercover?
    Mr. Crye. No, sir, it isn't.
    Mr. Shays. Do you have some security folks who are clearly 
just security and labeled so? I mean would they look like a 
police officer on board a ship, Mr. Purdy?
    Mr. Purdy. Yes, sir. They would have badges on and 
uniforms, and their sole function on board is traditional 
police type security.
    Mr. Shays. And they don't carry a weapon?
    Mr. Purdy. Sir, we, again, would rather not discuss the 
measures that they have for their defense, but we're happy to 
in a private session.
    Mr. Shays. OK. How do you secure the security of your 
guarantee that the employees that you hire are above reproach? 
Mr. Purdy, how do you do that?
    Mr. Purdy. It's a standard for the industry, I believe, but 
every crew member that we hire has to--we require them as a 
company to get a (c)(1)(D) visa, a seafarer's visa. That means 
that the hiring partners, besides the background checks that 
they conduct, also send them over to the U.S. consulate in that 
country to provide their information, and then that is vetted 
through the U.S. State Department. We do that whether the ship 
is actually working in a U.S. port, or even a ship that's just 
in Europe the whole summer. We require all crew members to have 
a U.S. seafarer's visa.
    Mr. Shays. Who issues that visa?
    Mr. Purdy. Those visas are issued by the U.S. consulates in 
the different countries. We also submit those----
    Mr. Shays. How does that guarantee that these people are 
above reproach?
    Mr. Purdy. Well, it guarantees that they, that they are not 
on any--that they are vetted by the U.S. Government. We also 
submit all the crew names, along with the passenger names, to 
the U.S. Government for vetting on the ship manifest, sir, each 
time the ship sails.
    Mr. Shays. Say that last part. Each time the ship sails, 
what? I am sorry.
    Mr. Purdy. We submit a manifest with all the names and date 
of birth, passport information, and what-have-you, to the U.S. 
Government, specifically to Customs and Border protection, and 
to the U.S. Coast Guard for analysis.
    Mr. Shays. Sir, do you do background checks on all of your 
employees?
    Mr. Purdy. We don't do background checks ourselves, but we 
have hiring agents in various parts of the world that are 
responsible for the background check, and again, we use the 
(c)(1)(D) visa process as a standard so that everybody goes 
through the U.S. screening and vetting process.
    Mr. Shays. We will learn how difficult it is to get the 
visa, but I am unclear from your answer as to--what I am 
hearing you say is that you do not do the security checks for 
your employees.
    Mr. Purdy. My answer is that it's not centralized from our 
Miami office, sir, but we have requirements on the various 
hiring partners that we have relationships all over the world.
    Mr. Shays. Mr. Mandigo, tell me what you all do.
    Mr. Mandigo. Mr. Chairman, we essentially do the same 
thing, that we have manning agencies, hiring partners, as you 
would call them, in different parts of the world.
    Mr. Shays. Do they get a commission?
    Mr. Mandigo. They are paid by us for their function, yes, 
sir.
    Mr. Shays. Do they get a commission for every employee they 
hire?
    Mr. Mandigo. I do not know the answer to that question, 
sir. I mean we certainly pay them for their services for 
providing crew for our ships.
    Mr. Shays. But you are not aware that they are not paid 
commission. Mr. Purdy, are they paid a commission for----
    Mr. Purdy. I'm not sure of the answer, sir.
    Mr. Shays. Mr. Crye.
    Mr. Crye. I don't know, sir.
    Mr. Shays. But anyway, you pay them to find people.
    Mr. Mandigo. That's correct, Mr. Chairman.
    Mr. Shays. And so they have an incentive to find people?
    Mr. Mandigo. Well, they have an incentive to find people, 
but we set the qualifications as who those people are. They 
have to have certain skills, certain abilities, and they are 
required to have a background check done on those people, and 
we do conduct audits of our hiring partners or our manning 
agencies periodically to determine if they are complying with 
our requirements.
    Mr. Shays. When you find an employee that you found was not 
properly vetted, what happens?
    Mr. Mandigo. We would immediately dismiss that person, and 
we would go back to the hiring agency, and if we determine it 
was egregious, that we would change our hiring agency, and we 
have done that before.
    Mr. Shays. Mr. Purdy.
    Mr. Purdy. Yes, sir, that would be our same practice. It's 
a human resources function to visit the hiring partners 
throughout the world and assess how they're operating, and 
conduct the audits and review of records.
    Mr. Shays. OK.
    Mr. Crye. Sir, also depending upon the nature of the 
particular position that an individual holds on board the 
vessel, they may be subject to additional scrutiny that 
requires additional background checks beyond a hiring 
background check.
    Mr. Shays. The previous panel discussed someone who is 
missing can be missing for a variety of reasons. I stated the 
ones I thought. I would like you, Mr. Mandigo and Mr. Purdy and 
Mr. Crye, in that order, to tell me the potential for why 
someone is missing.
    Mr. Mandigo. Mr. Chairman, that over the past 2 years, the 
Carnival Corporation Cruise Ships have carried over 12 million 
passengers. In that time period we have had 6 passengers go 
missing. None of----
    Mr. Shays. Six in twelve.
    Mr. Mandigo. Six missing. Actually, a seventh person that 
was rescued at sea.
    Mr. Shays. You said in 12 years?
    Mr. Mandigo. In 2 years, the last 2 years, six people, 
three each year. In none of those circumstances have we found 
information to indicate that foul play was a factor in those 
missing persons.
    Mr. Shays. I don't know what that means. In other words, 
so--tell me what that means. I will tell you why. If Mr. Smith 
had fallen overboard and they hadn't found blood, you would 
probably say no----
    Mr. Mandigo. That is possible, sir. And, Mr. Chairman, as I 
indicated, in those situations, in some of them there would be 
information that would indicate that it was potentially a 
suicide. For instance, that the shoes of the person were lined 
up very neatly alongside the railing, and items in their cabin 
were neat. There may have been a note left behind. So it would 
indicate the potential that may have been----
    Mr. Shays. Of those 6, you determined, in the 2-years, why 
were they missing?
    Mr. Mandigo. That four of them, that we believe we know 
what the circumstances were. Two of them are as yet 
undetermined.
    Mr. Shays. And what were the four circumstances, without 
details? What were they?
    Mr. Mandigo. Without going into names or identities, that 
four of those situations, based on all the information 
available that we have seen, that the belief is that they were 
probable suicides.
    Mr. Shays. What I would like is for you to walk through 
those cases with my staff so we can see how you all determined 
that. It would be helpful.
    So none of it was drunkenness. It was all, in your 
judgment, four out of the six was suicides?
    Mr. Mandigo. Yes. And I'd also add, Mr. Chairman, that all 
of these would have been immediately reported to the FBI for 
the FBI to pursue as they saw appropriate, given the 
circumstances.
    Mr. Shays. What, the four, the four?
    Mr. Mandigo. All six of them would have been reported as--
--
    Mr. Shays. Why? Why would you have reported all six?
    Mr. Mandigo. It's a missing person, and it's standard 
practice, if we have a missing person, to report that to the 
FBI if it's a U.S. person.
    Mr. Shays. Mr. Purdy.
    Mr. Purdy. Yes, sir. Generally the same. I would have the 
categories----
    Mr. Shays. Oh, no, how many in 2 years? Give me a number.
    Mr. Purdy. For the 2-years, sir, we have had 4 people, and 
that's for 29 ships, 7 million passengers during that period.
    Mr. Shays. I believe it was Merrian Lynn Carver on your 
ship, one of your ships?
    Mr. Purdy. Yes, sir.
    Mr. Shays. So she wasn't reported missing. So how does that 
come into the equation?
    Mr. Purdy. First of all, we'd like to extend our hearts to 
the Carver family. This was a horrible tragedy, and the fact is 
we didn't realize that she was missing. Our cabin steward did, 
as all our crew members are trained--report something 
suspicious, that this woman had not been using her room. He 
reported that to the supervisor. The supervisor questioned it, 
went to the computer system to see if she was registered on 
board. He verified that she was on board, and he didn't think 
anything else of it, and that was where he used extremely poor 
judgment in not reporting that up the chain.
    Mr. Shays. So what happened to him?
    Mr. Purdy. He was terminated, sir. He was terminated for 
this. Nevertheless, this is an incident that--we regret that we 
had caused this family additional anguish because of the delay 
in figuring this out. And once we did realize this, after going 
back and forth with the Cambridge detective who was working on 
this case, we ensured that again we notified the FBI, albeit 5 
weeks later. And since then we've taken other steps to ensure 
this doesn't happen again.
    This means now we've started having our ships having, when 
people disembark at the end of the cruise, also checking out on 
our SeaPass system so we can tell that, yes, in fact, everyone 
was cleared. We also have established in our company an 
anonymous hotline for any employee who has any question about a 
safety issue, security issue, environmental issue that's not 
being addressed properly through the on board team. They can 
call anonymously and that will get fully investigated from our 
shoreside staff.
    Again, our hearts go out to the family. This is----
    Mr. Shays. The reason why--you know, rather than your 
hearts going out to the family, which is important for you to 
say, particularly at this hearing, it would be better if you 
cooperated with the family, and didn't make them have to seek 
this information the way they sought it, having to spend 
literally tens of thousands of dollars. So your actions would 
speak more loudly than your statement, frankly, and your 
actions appear not to support your sorrow. Your actions on what 
you did to your employee, I think, are significant, because 
Lord knows that employee needed to leave.
    Mr. Purdy. Yes, sir. My understanding is this is under 
litigation. However, despite that, we have provided them with 
all the information that we have on the case, and the fact is, 
is there just isn't that much information. She booked the 
cruise 2 days before, came on with very few belongings, and 
that also contributed to us not realizing that she left. There 
was no cabin baggage. There was nothing for anybody else to 
understand that she was in fact missing, and we regret that 
deeply.
    Mr. Shays. So the four things that could happen in missing, 
would be what?
    Mr. Purdy. I'm sorry, sir. Accidents, which could happen, a 
homicide which could happen, and a suicide which could happen, 
as far as someone who could go missing.
    Mr. Shays. Right. There are two kinds of accidents, 
accidents where someone did something stupid----
    Mr. Purdy. Like horseplay, yes, sir.
    Mr. Shays. And so it is negligent homicide in that case. 
When someone is drunk, and they are walking outside, how do you 
protect those people? I mean you do encourage them to drink, 
and you do encourage them to have fun and so on. What is their 
protection if they are really drunk?
    Mr. Purdy. Initially, sir, we protect them by just the 
construction of the ship. They're built to be inherently safe. 
So the rails are at a height that it would be very difficult to 
simply fall over. The swimming pools would have nets over them 
if they weren't filled with water. In every aspect of the ship, 
there's safety considerations, because we know that this is the 
case on board. People are in a celebratory mood. It's the 
nature of the cruise.
    Mr. Shays. Why wouldn't you have cameras at every outside 
area so that you would be able to reconstruct when someone fell 
overboard whether they were pushed, thrown or just jumped? It 
seems to me that would be overall a fairly modest expense, and 
it would seem to me that it would discourage a crime because 
you would be on tape.
    Mr. Purdy. Yes, sir. We do believe CCTV is an effective 
deterrent as well as a tool for us, and we have----
    Mr. Shays. Well, why don't you use it?
    Mr. Purdy [continuing]. Had CCTV systems on our ships for 
the past, really I think, about 10 years. So all our ships have 
CCTV systems, and we are continuously bringing that technology 
forward. Our fleets alone started this year in transforming all 
of these systems from a regular analog tape system to a digital 
system, so we're continuously improving the system.
    Mr. Shays. But I mean the more I think about it, the more 
amazed I am. I mean you could basically have security, and for 
terrorism as well. You would basically be able on a screen to 
see if there was any foul play, and you would immediately be 
able to send someone to the area where there may be foul play, 
or if people are getting into an argument, you would be able to 
go quickly and break it up. Mr. Mandigo, why aren't TV screens, 
videos, available everywhere?
    Mr. Mandigo. Likewise, as my counterpart, we do have a 
number of CCTVs on cruise ships, but we do have issues of 
privacy. You're talking about multiple decks on a ship. You're 
talking about balconies on many of the cruise ships.
    Mr. Shays. That is true.
    Mr. Mandigo. It would be a challenge, although it could be 
done.
    Mr. Shays. I understand. What you are saying is on a 
balcony, that is a private balcony?
    Mr. Mandigo. It's private balconies and you have privacy 
issues, and----
    Mr. Shays. No, I hear you.
    Mr. Mandigo. And being new to the cruise industry and being 
on cruise ships, they are very massive, and to put that kind of 
coverage throughout the ship would be a challenge, but 
certainly could be done. But some of the things though that we 
do that address people for imbibing, drinking, is that our 
bartenders have training, you know, on how to spot people that 
have been drinking too much. They have training on what to do 
with those people. You know, we will escort them back to their 
cabins.
    Mr. Shays. Fair enough. We are coming to a close here. Let 
me just understand what rules supreme in terms of 
investigating, and who has jurisdiction. One issue is the 
citizen of the individual involved who may be missing. Let's 
just say a crime has been committed and they have been killed. 
One issue is the port of departure. Another issue is where the 
ship domiciles. Another issue is what flag it is under. Another 
is who owns it. And another issue could be where the ticket was 
sold. Are there other issues that come into play in terms of 
making this a confusing issue to have an investigation?
    Mr. Crye. Sorry. I hope that I didn't necessarily mislead 
you with respect to the issues of jurisdiction under 
international law. The jurisdiction under international law is 
based upon territory. It's based upon nationality. It's based 
upon protective principles----
    Mr. Shays. Nationality of the individual?
    Mr. Crye. Both the individual, as well as a potential 
perpetrator. And certainly generally a ship is considered to be 
the territory of the flag that it flies. However, that 
jurisdiction may be shared by others based upon these other 
factors.
    From a commercial perspective, which I think I was trying 
to address earlier, the issue becomes where the ticket was 
sold, what are the rights and responsibilities of the vessel 
and the passenger under the laws of that location. That's a 
different issue than the issues of jurisdiction under 
international law. There's a commercial contract that is issued 
as it relates to the rights and responsibilities of that 
vessel, of that individual under U.S. commercial law if that 
ticket is sold in the United States.
    Mr. Shays. Well, I am wrestling with a lot of different 
factors that come into play, and I don't know which ones carry 
the greatest weight. For instance, I am just trying to 
determine, you represent companies that service basically 90 
percent of the cruise trade; is that correct?
    Mr. Crye. Yes, sir, in the United States; 90 percent of 
North American.
    Mr. Shays. OK. So when a ship is leaving port--I guess what 
I am trying to determine is--not that you would want it, but 
you are going to give me an honest answer--what capabilities 
does the Federal Government, Congress, the White House have 
over your industry? What basic legal authority do we have over 
this industry to put forth, for instance, I am not comfortable 
with voluntary submission of statistics. I want to require it. 
I don't want there to be any doubt. I don't want there to be 
any ambivalence, ambiguity. I don't want there to be any, 
``Well, we did not do it, and we are sorry, and we fired the 
employee.'' I want to make sure it happens, and then I want to 
be able to trust those statistics. What capabilities----
    Mr. Crye. Are you thinking of gathering statistics for any 
ship, anywhere that carries U.S. passengers?
    Mr. Shays. Yes.
    Mr. Crye. I don't think that you can compel, for instance, 
a Greek ship that operates only in Greece that might sell a 
ticket in the United States, that a U.S. citizen goes and flies 
to Greece to get aboard that ship. And that ship, or the 
operating company that operates that ship, has no nexus to the 
United States other than a U.S. citizen chose to go to Greece 
to go on board that vessel.
    Another analogy might be a ferryboat. It's a passenger 
vessel operating in the Baltic that carries passengers between 
Norway and Switzerland--or Norway and Sweden. That is a vessel, 
and the voyage has to nexus to the United States.
    Mr. Shays. But basically the folks that are part of your 
organization do come under our authority, North America.
    Mr. Crye. To varying extents. Some operate routinely from 
the United States. Some operate with the majority of American 
passengers. Some operate on large international voyages that 
are around-the-world voyages, that infrequently, if ever, come 
to the United States. Others are primarily European operators 
who may come and sail from the Dominican Republic in the 
winter. Might that be a sufficient nexus to obtain the type of 
statistics that you're describing? There are varying degrees of 
nexus to the United States, is the point I'm trying to make. 
I'm not trying to be uncooperative.
    Mr. Shays. No, I understand.
    Mr. Crye. I'm just trying to tell you----
    Mr. Shays. You gave me an honest answer to a question and I 
appreciate it.
    Mr. Crye. Yes, sir.
    Mr. Shays. I think that the way we are going to leave it is 
that we will have you meet with the staff to talk about 
security, the number of folks that you have on board. Do you 
have a jail on board your ships?
    Mr. Purdy. Sir, for Royal Caribbean and Celebrity, we have 
what would be an isolation room on board the ships. On some of 
the older ships that do not have that, we would utilize a cabin 
with a guard posted at the front.
    Mr. Shays. OK. But what we will do is we will try to 
understand how you secure your vessels both from terrorists as 
well as how you try to maintain law and order. And I am 
comfortable doing that in closed doors. But, frankly, we will 
do it just with staff. I think that would be sufficient.
    We are----
    Mr. Crye. Sir, could I give you the industry-wide 
statistics?
    Mr. Shays. Sure.
    Mr. Crye. Our membership, we surveyed our membership for 
the number of missing persons who went overboard in the past 2 
years. We obtained a fair and accurate report that 13 people 
have gone overboard, or are missing over the past 2 years, and 
during that period we carried almost 20 million people, so that 
is a ratio of something more than 1 in a million, something 
more like 1 in 1.4 million.
    Mr. Shays. So it is a million different passengers but only 
for a week or two. In other words, it is a million passengers, 
but only for a week or two, correct, that you carried them? In 
other words, you don't have--I am saying the obvious, I am just 
trying to make sure we don't get overly impressed with that 
statistic, 20 million people.
    Mr. Crye. We have approximately 200,000 berths on board our 
ships. So if you equated those statistics to a town of 200,000, 
then you would be comparing apples to apples.
    Mr. Shays. Fair enough. That is my point. I don't want to 
compare it to a community of 20 million or a State of 20 
million. I really need to compare it to a community of 200,000.
    Mr. Crye. Yes.
    Mr. Shays. Fair enough. And that these statistics were 
voluntarily provided.
    Mr. Crye. By our membership to the trade association.
    Mr. Shays. Did everyone participate?
    Mr. Crye. Yes, sir.
    Mr. Shays. What I would like is if you would give those 
statistics for each of the cruise lines to my staff, if you 
would provide that, so in other words, we will know how many 
from each cruise line.
    Was there a disproportionate amount in one cruise line 
versus another?
    Mr. Crye. You've heard the majority of the statistics 
reported by the two cruise lines that are here present today.
    Mr. Shays. OK. But at any rate, we just want a breakdown of 
the 13, and you don't have to give it right now, but we will 
want it later. We want the 13 and what cruise ships they were. 
Actually, why don't you give it to us right now? What were 
they; 13 missing, and what were the cruise ships that the 13 
were missing?
    Mr. Crye. You've heard from Carnival Cruise Lines.
    Mr. Shays. Carnival was again how many, six?
    Mr. Mandigo. We had six for all the brands within Carnival.
    Mr. Shays. Over 2 years, right.
    And, Mr. Purdy.
    Mr. Purdy. Four, sir.
    Mr. Shays. So we have three left. It is not a trick 
question. We just want to get it on the record. Thank you.
    Mr. Crye. The other four--three we would like to provide to 
you.
    Mr. Shays. Would you do that?
    Mr. Crye. Because----
    Mr. Shays. Let me explain why, so that later on if someone 
contacts us and says my brother or sister was missing on this 
particular cruise ship, it will just reinforce and give us 
faith in the statistics you are providing. So that is why it 
would be helpful to have.
    Mr. Crye. Thank you, sir. We will be pleased to provide 
that for you.
    Mr. Shays. OK, thank you.
    Is there any question that we should have asked you, any 
question you prepared that you would like to put on the record? 
Any question we should have asked you that we didn't? You can 
ask yourself the question and then answer it. I, frankly, learn 
a lot from the questions that you may think we should have 
asked that we didn't, a lot. So is there anything that you 
would like to ask yourself or just put on the record?
    Mr. Mandigo. At risk, Mr. Chairman, I would add that, 27 
years in the FBI, that we always struggled over jurisdiction, 
and I was very happy in the cruise industry that we solved that 
problem fairly easily by simply taking the position that if it 
was a serious crime, we would report it, and then we did not 
have to worry about jurisdiction.
    Mr. Shays. You report it to whom?
    Mr. Mandigo. To the FBI if it was a serious crime.
    Mr. Shays. Mr. Purdy, any point that you want to put on the 
record?
    Mr. Purdy. Yes, sir. I would just like to clarify two 
points on the George Smith case that have been widely 
misreported.
    Mr. Shays. Yes, thank you.
    Mr. Purdy. Those points being our security, or our guest 
relations staff received the loud noise call at 4 a.m. It was 
not a call talking about a fight or any kind of violence. It 
was loud noise, sounded like partying sounds. Our security 
responded. Once they were there, they knocked on the door. The 
situation was, it was quiet, and that's their procedure for 
handling a noise complaint.
    Had there been a report of a fight, any kind of violence, 
our procedure is that they go in and physically verify that the 
occupants are OK. So I want to clarify that point.
    Mr. Shays. Thank you.
    Mr. Purdy. The second point is that the overhang, which has 
been reported as being cleaned immediately, was secured along 
with the cabin. The Turkish authorities came on board, after, 
again, we had notified the FBI as well. FBI was in Kusadasi at 
the time. The Turkish authorities conducted their forensic 
investigation, and they released both the overhang and the 
cabin to us for cleaning at approximately 6 p.m. They also 
released the ship to us to sail at 7 p.m. The overhang was 
cleaned at that time. However, we kept the cabin secured for 
the following 6 days while we were in communication with the 
FBI.
    Mr. Shays. Secured, but any of your own security people 
could walk in----
    Mr. Purdy. Meaning sealed off and nobody allowed to go in, 
sir.
    Mr. Shays. So even your security people couldn't go in?
    Mr. Purdy. Yes. I think our security people could go in, 
sir, but I would have to check whether anybody did, but it was 
secured.
    Mr. Shays. This raises an interesting point for me at 
least. I don't have a sense of how you involved the FBI. I 
mean, would it have been wise to wait for the FBI to come and 
let them do what they----
    Mr. Purdy. Sir, we were in communications with the FBI, and 
at that point there's a lot of diplomatic channels that we're 
not a party to that have to happen for that to happen----
    Mr. Shays. Wait a second. There is no noise from the 
audience on this issue. This is a hearing.
    But what I would like to know is this. We are talking about 
American citizens. I will tell you I have a lot more faith--
with no disrespect to the Turkish Government. I have met so 
many fine people in Turkey and government officials, but for 
them to have released it, and then you destroyed, frankly, some 
of the evidence once the Turks had basically allowed you. When 
does the FBI come? Had the FBI been on board the ship to check 
it out?
    Mr. Purdy. Sir, we have been asked not to discuss the FBI's 
investigation.
    Mr. Shays. That is fair enough. I am not going to ask you 
other than this, and let me ask you a general question. I am 
losing a sense of the significance of the FBI if you would 
destroy evidence before the FBI had given you approval. If you 
are telling me the FBI had given you approval, I would say, 
well, I have a comfort level with that. You are telling me the 
Turkish Government told you you could take care of it, then I 
have a problem with that.
    Mr. Purdy. Sir, we were in communications with the FBI, and 
they made no request to take any other actions at that time.
    Mr. Shays. OK. So let me just ask in general. Forget the 
Smith case.
    Mr. Purdy. Yes, sir.
    Mr. Shays. How do you involve the FBI if you are overseas 
in Greece? Do you get them from the Greek Embassy? I mean we 
have FBI agents--where do they come from?
    Mr. Purdy. If we have an allegation, we report it both 
through the Miami office to the FBI----
    Mr. Shays. So they meet you in the next port or do they----
    Mr. Purdy [continuing]. As well as the U.S. consulate.
    Mr. Shays. You notify them. Help me out. Anybody can answer 
this. I should ask them. Does the FBI fly to your ship in a 
helicopter and immediately take control, or do they wait till 
you come to the next port? Do they just talk to you on the 
phone? What do they do?
    Mr. Purdy. Ultimately they handle it on a case-by-case 
basis. On the case which happened over the weekend, the FBI 
required a request from the Canadian authorities to step in 
upon our notification, which they did, and they have started an 
investigation.
    Mr. Shays. What does step in mean, that they got involved 
or they landed on the ship?
    Mr. Purdy. Excuse me, sir?
    Mr. Shays. Getting involved isn't helping me understand. I 
want to know what getting involved means. Did they actually 
take control of whatever room that the needed to get, or place 
that they needed?
    Mr. Crye. Perhaps I could try to address that, sir.
    Mr. Shays. Were they personally there? Mr. Crye.
    Mr. Crye. I'm not speaking of the George Smith case, per 
se.
    Mr. Shays. No, I know that.
    Mr. Crye. I am talking about the different authorities that 
each arguably have jurisdiction, different countries. Bahamas 
might have jurisdiction. Greece might have jurisdiction. Turkey 
might have jurisdiction. And the United States might have 
jurisdiction. In the sorting of that out to determine who is 
the lead and who is taking control, there may be a lapse before 
the United States decided that it wants to be in the lead on 
the investigation. If that is the case, then the authorities of 
another government would be in the lead, and the FBI might be 
consulted with about whether they agree to release the 
potential crime scene, or they might not be. If Turkey says, 
``We are in control,'' and the FBI accedes to that control, and 
Turkey allows the release of the vessel, that is solely Turkish 
law enforcement authority's decision. And in fact, much has 
been made today about the Turkish officials----
    Mr. Shays. Just suspend a second. Just so you don't go on 
to a new thought, keep your thought. The issue, I can 
understand the Turkish authorities saying you can wash the 
blood off, but I don't understand why you have to, and I could 
understand why you might want to leave it there until American 
authorities had a chance to look at it. So their saying you can 
doesn't mean you had to. That is the only issue. And I am 
trying to understand what your policy is. I would like to think 
your policy would be--and forget the Smith case. I have 
specifically not asked the FBI anything about the Smith case. I 
haven't even asked the families about the FBI and the Smith 
case because--I have spoken to the families, but I haven't 
asked them about anything with the FBI, because, frankly, I 
don't want to know. I want to be able to ask my questions and 
not have to know that.
    What I would like to know is the policy of the shipping 
industry. What I am hearing you saying, Mr. Crye--and I am not 
trying to interrupt you, but I just want to make sure you are 
hearing me--what I am hearing you say is the FBI may be 
predominant or not. Being predominant or not doesn't 
necessarily mean that you should destroy evidence until the 
FBI, who may take a secondary role, has a chance to look at it, 
and I am just wanting to know if an America carrier, basically 
a company that caters mostly to Americans, if they are going to 
give a little benefit of the doubt to the FBI. That is kind of 
where I am at.
    Mr. Crye. I would think that each cruise line, if the FBI 
exercised their prerogative and said, ``We don't care what the 
Turkish authorities have done, we want you to do this,'' that 
each one of our cruise lines will cooperate fully with that----
    Mr. Shays. Mr. Purdy, is that true?
    Mr. Purdy. Absolutely, sir.
    Mr. Shays. Mr. Mandigo.
    Mr. Mandigo. Absolutely. I am aware of no instance where 
the FBI has been denied full access at their request, or for 
that matter where they have been on board, if it has been 
necessary to delay the ship, the ship has been delayed.
    Mr. Shays. Anything else you want to put on the record, Mr. 
Crye?
    Mr. Crye. The second part of that, sir, is that I am 
unaware of any instance when a flag state interfered with the 
exercise of U.S. jurisdiction on board a cruise ship when a 
U.S. citizen was involved.
    The thought that I wanted to finish earlier, was under the 
port State control authority. If the Turks had an active 
investigation and they wanted to detain that ship or lock that 
ship down, or prevent that ship from departing, they certainly 
had the authority to do so if that was their wish. What the 
Turks did in this circumstance, as I understand it, based upon 
what Mr. Purdy just testified to, was released the ship back to 
the master to depart. There was no commercial decision 
involved. The Turks had said, ``We have completed our 
investigation of that awning and that cabin.''
    Mr. Shays. But they did not, I don't think--well, never 
mind, because I don't really know the issues involved. I won't 
speculate.
    What leaves me uncomfortable is that I could be on a cruise 
ship where a murder may have been committed, and I may be off 
to a new port with a murderer on board. That doesn't leave me 
very comfortable. Forgetting whatever happened, obviously, the 
tragedy that happened with the Smiths, if a murder was 
committed, if it was done by someone who was staff or someone, 
a guest still on board, you still have the murderer on board. I 
am not quite sure what the solution is----
    Mr. Crye. The policy of the industry is to fully cooperate. 
If the Turks had chosen to stay on board and sail with the ship 
because they had suspicions, they could have done so, and we 
would have been more than welcoming. If the FBI had chosen to 
go board that ship that day--and there was an FBI agent at the 
consulate--if they had chosen to go aboard that ship that day 
and exercise their jurisdiction, the cruise line would have 
been more than willing to accommodate them.
    Mr. Shays. So bottom line, based on the statistics we have, 
we have 13 missing folks in the last 2 years in a city 
ultimately year long of about 20,000----
    Mr. Crye. 200,000.
    Mr. Shays. 200,000 people. And your point to me would be 
that would be a comparable statistic pretty much in the general 
public.
    Mr. Crye. I think that various cities in this country 
measure statistics very variably also, because you certainly 
have locations throughout the United States where tourism is a 
very big factor also, just as they are on a cruise ship where 
visits of a certain period of time are measured. If you are 
measuring 52 weeks a year, full time, how many people, then 
you're probably comparing to a city of 200,000.
    Mr. Shays. Fair enough.
    Mr. Crye. Roughly, for the North American cruise market and 
our membership.
    Mr. Shays. Thank you.
    This will be continued. We appreciate your cooperation. We 
will make sure we sit down with you on the statistics of your 
security, and I would love it if you, Mr. Crye--I would 
appreciate, if you, Mr. Crye, Mr. Purdy and Mr. Mandigo, would 
look at the statements of the families that have been 
victimized and have suffered loss to see if there is anything 
that you should be reconsidering about your policies or about 
particular cases and deal with it appropriately. That would be 
appreciated.
    Mr. Crye. Thank you, sir.
    Mr. Shays. Thank you all very much. You have been very 
excellent witnesses and I appreciate it.
    This hearing is adjourned.
    [Whereupon, at 6:18 p.m., the subcommittee was adjourned.]
    [The prepared statements of Hon. Ileana Ros-Lehtinen and 
Hon. John L. Mica follow:]

[GRAPHIC] [TIFF OMITTED] T7923.010

[GRAPHIC] [TIFF OMITTED] T7923.011

[GRAPHIC] [TIFF OMITTED] T7923.012

                                 <all>

</pre></body></html>
